<html>
<title> - ENHANCING BORDER SECURITY AND LAW ENFORCEMENT</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]





             ENHANCING BORDER SECURITY AND LAW ENFORCEMENT

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 10, 2002

                               __________

                           Serial No. 107-171

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform



                                 ______

85-608              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
BENJAMIN A. GILMAN, New York         ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         ROD R. BLAGOJEVICH, Illinois
JOHN L. MICA, Florida,               BERNARD SANDERS, Vermont
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JIM TURNER, Texas
DOUG OSE, California                 THOMAS H. ALLEN, Maine
JO ANN DAVIS, Virginia               JANICE D. SCHAKOWKY, Illinois
DAVE WELDON, Florida

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                   Christopher Donesa, Staff Director
                       Nicholas Coleman, Counsel
                          Conn Carroll, Clerk
                  Julian A. Haywood, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 10, 2002...................................     1
Statement of:
    Johnson, Larry C., CEO and founder, Berg Associates LLC; 
      Colleen M. Kelley, national president, National Treasury 
      Employees Union; T.J. Bonner, president, National Border 
      Patrol Council, American Federation of Government 
      Employees; Christopher Koch, president, World Shipping 
      Council; John Simpson, president, American Association of 
      Exporters and Importers; and Steve Russell, chairman and 
      CEO, Celadon Trucking Services, American Trucking 
      Associations...............................................    33
    Tischler, Bonni, Assistant Commissioner, Office of Field 
      Operations, U.S. Customs Service...........................    10
Letters, statements, etc., submitted for the record by:
    Bonner, T.J., president, National Border Patrol Council, 
      American Federation of Government Employees, prepared 
      statement of...............................................    53
    Johnson, Larry C., CEO and founder, Berg Associates LLC, 
      prepared statement of......................................    36
    Kelley, Colleen M., national president, National Treasury 
      Employees Union, prepared statement of.....................    42
    Koch, Christopher, president, World Shipping Council, 
      prepared statement of......................................    62
    Russell, Steve, chairman and CEO, Celadon Trucking Services, 
      American Trucking Associations, prepared statement of......    85
    Simpson, John, president, American Association of Exporters 
      and Importers, prepared statement of.......................    79
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     4
    Tischler, Bonni, Assistant Commissioner, Office of Field 
      Operations, U.S. Customs Service, prepared statement of....    14

 
             ENHANCING BORDER SECURITY AND LAW ENFORCEMENT

                              ----------                              


                       WEDNESDAY, APRIL 10, 2002

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m., in 
room 2514, Rayburn House Office Building, Hon. Mark E. Souder 
(chairman of the subcommittee) presiding.
    Present: Representatives Souder, Cummings and Davis.
    Staff present: Nicholas Coleman, counsel; Christopher 
Donessa, staff director and chief counsel; Conn Carroll, clerk; 
Tony Haywood, minority counsel; and Earley Green, minority 
assistant clerk.
    Mr. Souder. The subcommittee will now come to order. Good 
morning. Thank you all for coming. Today our subcommittee will 
investigate various proposals to enhance border security and 
law enforcement.
    Since last summer this subcommittee has been conducting a 
comprehensive study of our Nation's borders, considering ways 
to improve both security and the efficient flow of 
international commerce, travel and tourism.
    As policymakers have looked at ways to improve security at 
the border, a variety of significant, even sweeping changes 
have been suggested. These new proposals have involved both new 
technologies and new strategies to be used in inspections, in 
new organizational structures for agencies involved in border 
law enforcement.
    Four of these proposals merit special attention here today. 
First, the ramifications of moving our emphasis away from cargo 
inspections at the border toward inspections at the point of 
origin. In theory this would speed cargo through the ports of 
entry and eliminate what could be substantial delays as well as 
allow Customs inspectors to focus their inspection efforts on 
high risk cargo shipments.
    As the sheer volume of cargo shipments increases, it is 
clear that dramatically increasing preclearances will be 
required. Several issues need to be resolved, however. First, 
since these inspections must take place on foreign soil, how 
much control over the process can U.S. Customs officials 
actually exercise?
    Second, how will precleared cargo be protected from 
tampering as it is transported to the United States? In 
addition, how will the extra cost of inspecting, protecting and 
monitoring precleared cargo be allocated? Will the Federal 
Government pick up the tab or will the industry be forced to 
bear the cost and pass it on to American consumers?
    These and other questions must be answered before 
undertaking such a fundamental shift in law enforcement 
strategy.
    Second, we will examine the related issue of expediting the 
movement of travelers. The Customs Service and the INS have 
already set up so-called Fast Pass systems for commuters on 
both the Northern and Southern borders. On the Northern border, 
the NEXUS system is a joint project between the United States 
and Canada, under which frequent commuters can enroll in a 
program that allows them to use dedicated lanes, skip the long 
lines faced by other border crossers.
    On the Southern border, the SENTRI system allows both the 
American and Mexican citizens to use a dedicated commuter lane 
after submitting to a background check and paying a user fee.
    At each of our field hearings, residents of border 
communities have pressed for the expansion of these programs.
    Again, several issues need to be addressed before the 
decision to expand significant resources on the Fastpass 
systems is made. Canada and Mexico do not have equally 
efficient mechanisms for background checks. Also, it is not yet 
clear that fastpass lanes have had a significant beneficial 
impact on the amount of traffic in the general inspection 
lanes. Before removing further lanes from use by the general 
public, we should be certain that the Fastpass system will help 
the overall traffic situation.
    Finally, while the SENTRI system is at least partially 
funded by user fees on the Southern border, currently no user 
fee is collected on the Northern border. One significant 
question, therefore, is whether the fastpass systems should be 
paid for by all of the taxpayers or by those who use the 
systems.
    Third. Both Customs and the INS are moving forward with the 
modernization of their computer data bases and automated 
systems. Customs faces the daunting challenge of replacing the 
Automated Commercial System [ACS], which was first developed in 
1984, with the Automated Commercial Environment [ACE].
    ACS was designed to keep track of commercial shipments into 
the United States and to help Customs target which shipments 
should be inspected for contraband. The system is antiquated, 
however, and it frequently crashes. Planning for ACE began in 
1990, but as yet no system has been finalized. It appears it 
will take at least another 5 years before it is up and running.
    While there is broad agreement that ACS is inadequate and 
that ACE must be deployed as soon as is feasible, Congress 
needs to know now how much the new system will cost and how 
quickly and widely it can be deployed.
    Finally, several proposals have been made to consolidate 
the various agencies responsible for border management. The 
most sweeping proposals have been made in the Senate where one 
bill envisions merging Customs, INS, the Department of 
Transportation and other agencies into a Department of Homeland 
Security.
    A less ambitious proposal reportedly under consideration by 
the administration would merge Customs, the Border Patrol and 
INS's enforcement divisions into a single agency under the 
supervision of the Department of Justice.
    While consolidation of border enforcement agencies should 
be given appropriate consideration, much more information will 
be needed before such a step can be confidently taken. 
Consolidating even just the INS and Customs would require 
significant time and effort and would only be justified if both 
agencies would benefit.
    Congress needs specific information about what problems 
would be solved by the agency merger, what activities would be 
enhanced, and what difficulties caused by the merger would have 
to be overcome. These issues are all extremely important. And I 
look forward to discussing them with all of our witnesses 
today.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T5608.001
    
    [GRAPHIC] [TIFF OMITTED] T5608.002
    
    [GRAPHIC] [TIFF OMITTED] T5608.003
    
    [GRAPHIC] [TIFF OMITTED] T5608.004
    
    Mr. Souder. We are pleased to welcome Ms. Bonni Tischler, 
Assistant Commissioner of the Office of Field Operations for 
the U.S. Customs Service; Mr. Larry Johnson, CEO and Founder of 
BERG Associates, LLC, and a former counterterrorism expert at 
the CIA and the Department of State; Ms. Colleen Kelley, 
National President of the National Treasury Employees Union, 
which represents Customs workers; Mr. T. J. Bonner, President 
of the National Border Patrol Council of the American 
Federation of Government Employees which represents the INS 
employees; Mr. Christopher Koch, President of the World 
Shipping Council; Mr. John Simpson, President of the American 
Association of Exporters and Importers; and Mr. Steve Russell, 
Chairman and CEO of Celadon Trucking Services, representing the 
American Trucking Associations.
    We thank everyone for taking the time this morning to join 
us for this important discussion.
    Now I would like to recognize Mr. Cummings for an opening 
statement.
    Mr. Cummings. Thank you very much, Mr. Chairman. I want to 
commend you for holding this hearing and for taking such a keen 
interest in the issue of promoting security and efficiency at 
America's border crossings and ports of entry.
    The series of field hearings you have held, culminating in 
today's hearing, serve an important purpose. Our air, land, and 
seaports of entry are literally America's gateways to travel, 
tourism and international trade and commerce.
    Our desire for openness and cultural exchange and our 
dependence on international trade, make it imperative that 
these conduits operate efficiently.
    But as the persistent illegal narcotics trade and, even 
more dramatically, the September 11th attacks have 
demonstrated, our insistence upon openness can be manipulated 
to inflict tragic consequences upon us all. Because of the 
nature of the September 11th attacks, the issue of airport 
security and airplane passenger safety has drawn enormous 
attention from the public, the media and all levels of 
government, and rightly so.
    Equally important, however, is our government's 
responsibility to ensure that America's land and seaports are 
able to operate both safely and efficiently. That is the reason 
for today's hearing. The more than 40 Federal agencies that 
operate at our Nation's ports of entry have an enormous task on 
their collective hands. Among those, the burden of regulating 
our borders and ports and providing the first line of defense 
in our homeland security efforts.
    This falls heaviest upon the U.S. Customs Service, the 
Immigration and Naturalization Service, the U.S. Coast Guard 
and the U.S. Border Patrol. We will hear directly today only 
from the Customs Service, but all of our witnesses will have 
something to say about the efforts of all of these agencies and 
how they can work most effectively and efficiently together to 
advance the Nation's interest in securing our borders, 
facilitating tourism and trade, and enforcing our laws.
    Mr. Chairman, I must say that I do regret that we don't 
have the director of the Office of Homeland Security, Tom 
Ridge, who is the person who brings all of this together and 
could probably provide us with the kind of information we need, 
here today with us.
    As you all are aware, Mr. Chairman, Customs Service 
Chairman Bonner recently said that if terrorists succeeded in 
detonating a nuclear device in a commercial shipping container, 
the government would shut our container terminals down.
    Leaving aside the tragic health and environmental 
consequences of such an event, I suspect that many Americans do 
not realize the extent to which the American economy is 
supported by its seaports. The Port of Baltimore, for example, 
contributes mightily to the economic strength of the Mid 
Atlantic region in particular. But the goods that arrive there 
reach deep into the Midwest and other areas of the country, 
just as the goods that leave through it travel all over the 
world. Cities like Baltimore, New Orleans, New York and Los 
Angeles that have major commercial ports depend on those ports 
to support a wide array of related industries that employ 
millions of Americans both locally and far beyond their 
borders.
    The shutting down of just one major U.S. port would have a 
substantial national economic impact and ripples would be felt 
worldwide. Similarly, the flow of commerce over land between 
the United States and our two largest trading partners, Mexico 
and Canada, is vital to the economic health of the entire 
hemisphere and beyond.
    In the new normality that has been thrust upon us, Customs, 
INS, Border Patrol and the Coast Guard are all being forced to 
evolve quickly to meet the challenge of avoiding the kind of 
threat to homeland security and the world economy that 
Commissioner Bonner described.
    New initiatives in the area of technology, strategy and 
interagency cooperation, including a possible reorganization of 
so-called border agencies, are being developed, implemented or 
considered by Congress and the administration.
    Today's hearing provides an important opportunity to 
examine both the status and the wisdom of these various 
efforts, and I look forward to hearing the valuable testimony 
of our witnesses.
    With that, Mr. Chairman, I yield back and I thank you.
    Mr. Souder. Thank you. Before proceeding, I would first 
like to have the record show that the director of Homeland 
Security, Mr. Ridge, will be giving a briefing to the members 
of this full committee this week, and we are looking forward to 
that. Mr. Zigler has been in front of us several times. They 
have a number of hearings on the Hill, will continue to work 
with INS.
    Today we will be focusing a little more directly on the 
commerce interaction which is more directly related to Customs, 
but we will have a number of INS questions, and they have 
submitted written testimony and will respond to our questions 
as those directly showing to overlap as well.
    Mr. Cummings. Will the chairman yield for a question?
    Mr. Souder. I yield for a question.
    Mr. Cummings. Just one question. On Tom Ridge's appearance 
before that committee, that is--before our committee, is that 
closed? Is that the entire committee? Is that a closed hearing? 
Will the public have access?
    Mr. Souder. Yes. My understanding is that it is--double-
check because I assumed it was closed, which it is. But it is 
for the full committee.
    Mr. Cummings. Very well. Thank you.
    Mr. Souder. But that--we formally invited, but did not 
pressure Mr. Ridge to come in public because we knew the 
briefing was coming. But he is clearly going to need to speak 
to the Hill more in response if in fact consolidation goes 
ahead. I think both sides agree with that basic point.
    Before proceeding, I would like to take care of a couple of 
procedural matters. First, I would ask unanimous consent that 
all Members have 5 legislative days to submit written 
statements and questions for the hearing record and that any 
answers to written questions provided by the witnesses also be 
included in the record.
    Without objection, it is so ordered.
    Second, I ask unanimous consent that all exhibits, 
documents and other materials referred to by the Members and 
the witnesses may be included in the hearing record, and that 
all Members be permitted to revise and extend their remarks. 
Without objection, it is so ordered.
    As is customary, we will begin with the administration 
witness who today is Ms. Bonni Tischler, Assistant Commissioner 
for the Office of Field Operations for the U.S. Customs 
Service.
    I would like to note for the record that we also invited 
the representatives of INS and the White House, as I just said. 
There are a number of other hearings. We know there are 
pressures on all of the witnesses and we appreciate it very 
much that the Customs has come today, because we have this 
focus on commerce. It is a standard in our committee to ask all 
witnesses to testify under oath. So, Ms. Tischler, if you would 
stand and raise your right hand.
    [Witness sworn.]
    Mr. Souder. Let the record show that the witness responded 
in the affirmative. I now ask you to give an opening statement. 
We ask you to summarize it in 5 minutes. We will insert your 
full statement in the record.

STATEMENT OF BONNI TISCHLER, ASSISTANT COMMISSIONER, OFFICE OF 
             FIELD OPERATIONS, U.S. CUSTOMS SERVICE

    Ms. Tischler. Thank you, Mr. Chairman and members of the 
subcommittee, for this opportunity to testify on behalf of 
Commissioner Bonner and the U.S. Customs Service. Throughout 
our 212-year history, the Customs Service has demonstrated its 
ability to adapt to the varying challenges our Nation has faced 
in its greatest times of peril.
    With the tragic events of September 11th, a coordinated 
attack on our homeland, the mission of the Customs Service has 
evolved yet again. And simply put, our No. 1 priority is now to 
protect our Nation from terrorists.
    The task at hand is enormous. On a national basis the 
Customs Service is responsible for processing over 470 million 
people, 129 million cars and over 19 million trucks, railcars 
and sea containers that arrive into the United States each 
year. Obviously we cannot inspect each and every shipment of 
goods that enters the United States. To do so would cripple the 
flow of trade.
    Customs employs a systematic process based on the 
principles of risk management. This process involves data 
collection and analysis, combined with years of experience and 
old fashioned intuition as our personnel identify trends and 
anomalies in data to make informed risk-based decisions on what 
to screen, target and, when appropriate, examine.
    Since September 11th the Customs Service has been operating 
at our highest level of vigilance. Inspectors manning America's 
front line have been staffing land border ports of entry around 
the clock, performing increased enforcement screenings, 
examinations and security operations.
    Officers at our ports of entry are working 12 to 16 hours a 
day, 6 and 7 days a week, and they have been doing so for over 
6 months. Since last September the rules have changed. Customs 
can no longer be satisfied with conducting examinations solely 
at the port of entry. We must begin to view the border as more 
than a mere physical boundary between countries. We must also 
understand it in terms of the actions we undertake with our 
foreign partners to prescreen people and goods before they 
arrive in the United States.
    To better address the threat that terrorists could exploit 
commercial trade, Customs has developed a Container Security 
Initiative. We call it CSI, which is designed to improve our 
border security and efficiency by pushing our enforcement 
efforts beyond our borders.
    CSI will allow U.S. Customs more time to anticipate, 
identify and stop threats before they reach our shores and 
expedite the flow of low risk commerce across our borders. The 
core elements of this initiative include receiving specific 
advance electronic manifest information, establishing a common 
targeting methodology for identifying high risk containers, and 
prescreening these containers at their port of departure before 
they are loaded aboard a vessel and transported to the United 
States.
    CSI is already underway. Customs has personnel detailed to 
seaports in Montreal, Halifax and Vancouver, Canada to target 
in-transit sea containers destined to the United States. In 
order for our efforts to push our border outward under CSI to 
be successful, we must enlist the support of industry and the 
trade community.
    To this end, Customs announced the development of the 
Customs Trade Partnership Against Terrorism, CTPAT, and 
Operation Shield America. Through CTPAT we are working with 
importers, carriers and other industry sectors to secure the 
international supply chain by emphasizing a seamless security-
conscious environment throughout the entire commercial process. 
Operation Shield America is an industry outreach initiative 
dedicated to enlisting the support of manufacturers and 
distributors in preventing terrorist organizations from 
obtaining weapons or sensitive equipment and technologies.
    Furthermore, Customs is leading Operation Green Quest, a 
multiagency initiative aimed at interdicting terrorist funding 
by identifying, disrupting and dismantling the financial 
systems they use to fund their operations.
    Through interagency efforts, working with our law 
enforcement counterparts and members of industry, we are 
developing comprehensive strategies, procedures and plans to 
maximize the utilization of existing resources to improve 
border security, coordinate enforcement activity and respond to 
terrorist acts and collaborate on legislative initiatives.
    On the international front, Customs is working with our 
counterparts in Canada and Mexico to improve the level and 
information exchange and adopt measures to protect our mutual 
borders.
    Over 25 initiatives aimed at improving cross-border 
collaboration and security are already underway under the Smart 
Border Accord recently signed with Canada. A similar agreement 
was recently negotiated with Mexico and we are in the initial 
stages of developing eight joint action plans to address 
security issues along the southwest border.
    Customs' most important technology initiative to secure our 
future was already underway before the events of September 
11th. This initiative is the ongoing development of the 
automated commercial environment or ACE. ACE will provide the 
information technology architecture and infrastructure that 
will allow Customs to streamline our commercial data processing 
systems and significantly improve our ability to collect 
advance commercial information from a variety of automated 
sources in order to efficiently perform law enforcement 
analysis and targeting.
    Technology and information-sharing are absolutely essential 
to our counterterrorist mission. Customs must deploy the 
technology necessary to rapidly and comprehensively inspect 
arriving and departing conveyances and cargo at our ports of 
entry in order to detect anomalies and prevent the smuggling of 
weapons of mass destruction, narcotics and other contraband. 
This must be done without impeding the flow of legitimate 
commercial trade. Customs is implementing a strategy to 
develop, acquire and deploy non-intrusive INS technology to 
systematically increase the smuggler's risk of detection in all 
port environments, including all modes of transportation.
    So far under this plan Customs has deployed over 80 large 
scale inspection systems at our air, land and seaports of 
entry. These large-scale fixed sites, relocateable and mobile 
X-ray and gamma ray imaging systems are able to rapidly and 
efficiently screen commercial trucks, sea containers and 
vehicles entering the United States.
    In addition to these large-scale systems, Customs has also 
deployed personal radiation detectors to allow inspectors to 
monitor their ports for radioactive sources. We are also 
working on developing new smart technologies capable of 
ensuring the integrity of a shipment and those capable of 
detecting and identifying chemical, biological and nuclear 
materials. For example, U.S. Customs and the Department of 
Transportation are in the initial stages of trying to develop a 
secure technology, a smart seal, capable of ensuring the 
integrity of a sea container or alerting law enforcement 
personnel when tampering has occurred.
    Additionally, we are also working on the development of 
wireless technology like personal data assistants and notebook 
computers which can interface with our law enforcement data 
bases on the ground. This wireless technology will improve the 
flow and exchange of key law enforcement data to ensure our 
officers on the front line have the most current tactical 
information available to them when they are performing 
enforcement operations to target and examine high risk 
passengers and cargo shipments.
    In closing, allow me to state that we are grateful for this 
support we have received from the administration and Congress 
to continue the development of ACE. We also appreciate the 
support we recently received in the antiterrorism supplemental 
budget which will provide additional inspectors, agents and K-9 
enforcement officers and more high-tech, nonintrusive INS 
technology for deployment at our ports of entry over the next 2 
years.
    I firmly believe that the U.S. Customs Service has the 
expertise and the experience to protect our borders. Thank you 
again, Mr. Chairman, and the members of the subcommittee for 
this opportunity to testify. I look forward to answering any 
questions you may have.
    [The prepared statement of Ms. Tischler follows:]


    [GRAPHIC] [TIFF OMITTED] T5608.005
    
    [GRAPHIC] [TIFF OMITTED] T5608.006
    
    [GRAPHIC] [TIFF OMITTED] T5608.007
    
    [GRAPHIC] [TIFF OMITTED] T5608.008
    
    [GRAPHIC] [TIFF OMITTED] T5608.009
    
    [GRAPHIC] [TIFF OMITTED] T5608.010
    
    [GRAPHIC] [TIFF OMITTED] T5608.011
    
    [GRAPHIC] [TIFF OMITTED] T5608.012
    
    Mr. Souder. Thank you very much for both your leadership 
and your willingness to testify today. The challenges that the 
Customs Service is facing are overwhelming. Just the daunting 
challenges that you faced in commerce and contraband and 
illegals before was difficult enough and stressing our system 
even before we got into the September 11th.
    So far I have been on both the north and south borders. In 
Vermont, in addition to looking for Quebec Gold and ecstacy, 
they are looking for contraband cheese coming across.
    In North Dakota, I went through one of the facilities for 
the train inspections that is relatively new. They have a lot 
of cargo, wheat, moving across, and other things across the 
North Dakota border where we have more crossings, actually, 
than any other place in the United States. In Los Angeles, Long 
Beach, some of the new technology that Customs has brought in 
there at the largest harbors in the world, it is amazing the 
different things you have to look for and what the Customs 
agents in the field have to look for, and they vary so 
dramatically, even from site to site, even in the same State 
range.
    We are working on this border report. I have a number of 
very specific questions. We will probably do two rounds here 
and then submit some others for written. One of the--maybe I 
will start with the automated computer system. What is the time 
table roughly for implementation, and how long before it is 
deployed at the seaports and the airports as well as the border 
crossings?
    Ms. Tischler. Well, our automated commercial environment is 
actually just that, an environment. So it is not just a rollout 
to the ports. It is going to encompass everything Customs does 
commercially. We were on a 5-year timeframe. Our commissioner 
is doing everything possible to reduce that to 4 years. It is a 
function of the funding stream. We have been very fortunate the 
last couple of years, and we look forward to mutually 
discussing this with your committee and others that in fact are 
interested in it.
    What that commercial environment will do, as I stated 
before, is really establish an electronic data warehouse. And 
so while we will be able to efficiently process commercial 
entries, we will also be able to use it, in conjunction with 
our targeting system, to identify anomalies in the flow. That 
is what it is all about. Because whether you are smuggling 
narcotics or smuggling weapons of mass destruction, it is all 
about smuggling. And that is the daunting task of how in the 
sea environment, for instance, to reduce this 5.9 million 
containers a year to a manageable number for us to in fact 
effectively look at.
    Mr. Souder. Do you--when you say 5 to 4, was that starting 
with fiscal 2001?
    Ms. Tischler. It is starting fiscal year 2000. But the 
money was delayed, so I believe they started it in 2001. I know 
that our first entry configuration is due to start rolling out 
the end of this year in the beginning of next fiscal year.
    Mr. Souder. So under that plan it would probably be 2005 if 
we got accelerated to 4?
    Ms. Tischler. Yes, sir.
    Mr. Souder. Do you believe that as we have looked--because 
we have been at Port Huron as well as San Diego and other 
places. But particularly where the SENTRI and the NEXUS systems 
are, do you believe--and in Blaine, do you believe that they 
have--do you have figures that show they--that they are 
succeeding in the way that they had hoped?
    Ms. Tischler. First, let me state that Commissioner Bonner 
supports the idea of having these types of fast lanes. You 
know, we are walking a tightrope. I know I do not have to tell 
you because you saw it on the Northern and Southern border. Not 
only facilitating trade, but an enormous number of people cross 
every day for work and for other reasons, to contribute to the 
economy, for instance, in Detroit.
    Personally I think they should shrink it down to one 
manageable system. I think at the end of the day our partners 
in Canada are very pro for that, in fact, that NEXUS and 
actually the SENTRI environment continue. I think it is part of 
the Smart Border Accord. So for the people who are crossing 
now, we think it is pretty efficient. For the numbers that 
might cross at some point where we would expand the system, it 
is a question of logistics at that point, is how to create the 
fast lanes that would allow them to come in.
    Port Huron, it is a lot easier, for instance, than at the 
Port of Detroit.
    Mr. Souder. That is one of the--I have got some detailed 
other areas I want to get into in the second round. But we are 
going to do a little bit of some followup questions, if not 
today then in writing, on that very problem. Because where have 
you have--like at Blaine, Washington, you can bounce certain 
people over to the next port of entry because they are 
relatively close. On the North Dakota border, New York and 
Vermont even, but when you get into the matter of the traffic 
coming through Detroit, it is so jammed that unless we can 
figure out alternative ways to put it on the Canadian side--
Buffalo is the same thing. They have environment challenges 
about new bridges, and yet Detroit and Buffalo are where the 
bulk of where the north border traffic is coming through.
    On the south border we have a few similar problems, have 
got a couple of ports of entry where there is longer distances 
involved. And so we need in Congress to understand, because all 
of us agree we have to keep the commerce moving and control the 
terrorism, because jobs and security are our two biggest 
concerns as Members of Congress. But to do that is going to 
require some major infrastructure questions because you cannot 
say we are for fastpass and not have enough lanes. And 
physically we have rivers in some of these borders and this is 
a very costly proposition.
    Mr. Cummings.
    Mr. Cummings. Thank you very much, Mr. Chairman. And Ms. 
Tischler, thank you very much for being here.
    I agree with the chairman that the Customs unquestionably 
has a very difficult challenge. And consistent with that, I 
guess we have a lot of people who are working overtime now?
    Ms. Tischler. Yes, sir.
    Mr. Cummings. And what are we doing about bringing in new 
people?
    Ms. Tischler. Well, we have been very fortunate this year, 
thanks to Congress and the administration for supporting 
efforts to increase our rolls. Just in the 2000 arena, that is 
all I can speak to, we almost have gone up about 1,000 people. 
And it is split between the Customs inspectors, as I pointed 
out before, the K-9 officers and our agents. So the total 
number of inspectors that we are getting actually as a result 
of the 2002 initiatives and the supplemental is 919. And the 
total number of agents is 381. And we are quite happy about 
that. We have been pretty static for the last number of years. 
It was pretty hard to spread people around. In fact in 1999, 
when the Rasson incident happened and we had to send people to 
the border, then we realized exactly how thin we were on the 
Northern border. That is why a lot of these individuals are 
going to be reporting to the Northern border ports.
    Mr. Cummings. One of the things that was very interesting 
during one of our hearings that--we were talking about--the 
issue of airline security came up. And it may have actually 
been in another committee that I am on. And they were saying 
that--how as they had to get more of these folks that ride in 
the airplanes, the security.
    Ms. Tischler. Sky marshals.
    Mr. Cummings. Sky marshals. That--so many new terms here. I 
asked them where were these people coming from, the new people. 
And they said most of them were coming from the Border Patrol, 
which is very interesting. I am just wondering where are your 
people coming from? Is there any particular place that you see 
a high number of them coming?
    Ms. Tischler. We have lost a few to TSA as well in their 
endeavor to staff the sky marshal area. When we are recruiting, 
we recruit in the widest area possible. And so, frankly, does 
INS. So it sort of depends on who actually puts in. But we just 
had a team, for instance, in New England looking to staff the 
Northern border because we realize it is possible that if you 
hire somebody from the southwest border and try to send them to 
Beecher Falls, they might not stay there too long. So we try 
very diligently to fit the right person with the right job.
    And we are recruiting all across the United States right 
now. So we do not expect really to pull from the other agencies 
except for the special agent position.
    Mr. Cummings. Not very long ago I got a call I think from 
The New York Times, and they were trying to pull together an 
article about how since September 11th there had been an 
increase in the amount of drugs that have been found by Customs 
and they wanted me to comment.
    And is that accurate, first of all? Have we seen an 
increase in drug discoveries?
    Ms. Tischler. Customs has--we have just recently run a 
survey on that, and it appears to us that we have been able to 
interdict a lot more drugs coming across the southwest border, 
and even coming across the Northern border. Although it is 
pretty restricted to certain areas. So we would agree with 
that.
    Mr. Cummings. And is that because the surveillance is much 
stricter?
    Ms. Tischler. I would like to think it is a function of the 
number of people up there, yeah.
    Mr. Cummings. And as far as going back for a moment to the 
new peopling coming in, is the training that they receive now 
much different than it was say pre-September 11th?
    Ms. Tischler. No. Our training has really been pretty 
consistent over the years. Like I said, the issue of how to 
address smuggling on the border or how to address how to 
process commercial traffic pretty well stays the same. What we 
have added is a new focus on terrorist activities. How to spot 
anomalies that might lead us in that direction. I am not being 
facetious, but what a weapon of mass destruction might look 
like, how to work the radiation pagers, how to deal with some 
of the new technology that we are going to be using to look for 
chemicals that are inbound.
    So, in general, training really hasn't changed that much in 
specific. To deal with the area of terrorism, we pretty well 
are cranking up our program to include new areas that will 
impact on that.
    Mr. Cummings. Just one other question. And I would be more 
than remiss if I did not ask you this. I do not think I could 
go back to my district. You know, there was a time, and it is a 
little unrelated but related, about a year or so ago when 
African-Americans were very concerned that the Customs, 
particularly airlines, we would be having all kind of problems. 
African-American women were disproportionately being checked at 
the airports. And I know that--I guess that may have been about 
2 years ago. Our colleague, John Lewis, spoke out against it at 
the Congressional Black Caucus. And African-American men were 
being disproportionately stopped and checked and searched, in 
many instances strip-searched. And I was just wondering has a--
I know that back then some new policies were put in place.
    And I was just wondering how those policies were working 
out? I know this is a little unrelated, but I have to ask you 
since I have you here before us.
    Ms. Tischler. Even prior to September 11th, the level of 
noise, the level of complaints, letters we were getting in had 
completely fallen off. So we are very pleased with the policies 
that we put into place. Our training on personal search has 
proven to be really reliable.
    Our search efficiency rate, meaning the numbers of people 
searched and what we actually find on them, has actually gone 
up. Because, for instance, in one of our ports, I will not tell 
you which, they searched like 1,000 people and got very little 
return. Well, they have searched a lot fewer people than the 
1,000 people within that same timeframe and their search 
efficiency rate went way up. They have made seizures where none 
existed before.
    So Customs has really taken a lot of time, energy, and put 
a lot of money behind straightening that perceived problem out. 
And we are pleased.
    Mr. Cummings. Thank you very much.
    Mr. Souder. Our economy in Indiana would die if we were 
restricted much with our Canadian trade because it has become a 
huge part because of NAFTA, in addition to trade with Mexico. 
So we are very concerned how to keep the commerce moving, 
particularly if we have additional terrorist incidents, which 
we know at some point we will have in the United States, and 
how our country is going to a react on the borders. Since 
September 11th it has gone down to near manageable levels 
again, and we have done that with a lot of stress. We are 
bringing in the systems. But we all know that this isn't a 
problem that is suddenly over, and therefore we are likely to 
see the pressures.
    We all know that this expedited clearance process is 
critical. So I have some very specific questions related to 
this. One pilot program which is a joint venture between 
Customs and the State of New Hampshire apparently will involve 
a Slovakian factory and a U.S. importer. The goods will be 
inspected and sealed at the factory in Slovakia and then 
brought into the United States. Who will carry out the 
inspections at the point of origin? Will the U.S. Customs do 
that? Will they simply supervise them? If it is the latter, 
will the private firms that make or carry the goods be 
entrusted with the inspections or will the foreign nations' 
customs inspectors carry them out?
    In other words, how is this process exactly going to work? 
Because this is vital in the preclearance questions and in the 
security question.
    Ms. Tischler. Correct. The Croatian pilot is Operation 
Safeguard. It is being sponsored by the Coast Guard. I believe 
they are going to be handling the security issues overseas.
    But let me say this, that the concept of what Safeguard is 
trying to pilot, the issue of a company securing its supply 
chain from start to when it gets to American Customs, is an apt 
one. That is what that CTPAT concept and CSI, the Container 
Security Initiative, is all about, In Canada, however, which is 
something I can speak to, we have got inspectors at Vancouver, 
Montreal and Halifax. We are cooperating with our Canadian 
counterparts. We do the targeting with them. We are showing 
them how to do it as well.
    By the way, they have got people now at Seattle and Newark 
that are doing the same things for cargo going to Canada.
    But once we identify an anomaly, we set the container to 
the side. They are handling it. The Canadians are handling it, 
with us observing. They are running these containers through 
NII that they have got, and/or opening the cargo. I guess I 
think it is fortunate that we have come up with nothing. But we 
have done a number of containers. We just sent our inspectors 
into Halifax and Montreal the week before last. So we know what 
is going to happen there.
    The idea is, I know--I do not think I am speaking out of 
turn if I tell you, we have already been to one of the mega 
ports and have been negotiating with this country--I really do 
not want to say what it is, because I don't want to put them on 
the spot. But they seem very receptive of the idea of us 
sending inspectors over there again to target.
    Now in terms of who is going do the searching and what they 
are going to do with the stuff if we do interdict something, 
from a law enforcement perspective in the context of narcotics, 
will we try to do a controlled delivery? Will they handle it 
there? That all remains to be seen. I think as we go to each 
country that has one of those mega ports or even beyond that, 
it is going to be a function of how we deal with that country 
and what law enforcement is available there, what kind of NII 
they actually have.
    I know we have been talking to the State Department about 
the possibility of providing NII to some of these ports that 
don't have anything. It just makes sense to do that. But I do 
have to say that there are some bills before Congress right now 
which would help us out, absent that, and even including that. 
And that is a House bill and a Senate bill that speak to 
reforming the way we look at the manifests and trying to get 
them far in advance.
    We would like to see an electronic transfer of manifest 
information. We would like more detailed and accurate manifest 
information and we would like it 24 hours before a ship, for 
instance, would depart from a port overseas. I think some of 
the proposals have revolved around 5 days which works pretty 
well for Europe and Asia, but for this hemisphere it doesn't 
work very well when this stuff is coming in from Grand Bahama 
Island which is hours away from Miami. So we are looking for a 
little tinkering with the bills.
    But back to overseas. So far the countries that we have 
talked to have been receptive. And I think, as they say, the 
devil is in the details.
    Mr. Souder. Will your ACE computer system be able to handle 
all of this data?
    Ms. Tischler. When ACE finally gets up and running, 
absolutely. ACS is going to be a little stretched.
    Mr. Souder. Would it be--a little stretched means it might 
not be able to handle it?
    Ms. Tischler. I think for the short term, within the next 
couple of years, it will be able to handle it fine. It is just 
that it is not as sophisticated as we would like to do data 
analysis and trend analysis. And it is in that area where the 
information would come in and then be used to, in fact, target 
cargo that will be a little on the lacking side. That is why we 
are so anxious to get ACE up and running.
    Mr. Souder. I know the president of Mexico has taken 
tremendous strides in cleaning up a lot of the corruption in 
Mexico but it is a prevalent problem in their police 
departments. And one of the problems in the south border is we 
are dependent on their local police commanders because there is 
no central criminal data base. I would suggest that this 
probably presents problems on rail and other things coming in, 
not only with Mexico but other countries. Would you agree with 
that statement?
    Ms. Tischler. I am not knowledgeable enough to actually 
agree with you. But I would say that would present a problem, 
if true. I know that Mexican Customs is investing pretty 
heavily in IT, and they feel that they are going to be very 
sophisticated in order to interface with ACE, and our Canadian 
partners as well.
    Mr. Souder. In your reference to the legislation, I think 
it is fair to say, that much like we did on the airline 
manifests and have put pressure on the different countries to 
provide us with the names of the people heading into this 
country, to make the fastpass systems work, whether they are 
NEXUS or SENTRI or whatever types of preclearances, we are 
going to have to have more data.
    Now I know trucking companies and others and shippers are 
going to want to add things at the last minute. That is the 
nature of the business. But to the degree you do that, we don't 
have the same sense of security. One of the things that we have 
raised at some of our hearings with some Canadian trucking 
companies, at one of the hearings with others, is that probably 
there are going to need to be more severe penalties if you 
abuse the preclearance system, because the--the integrity of 
that system is vital to the movement of commerce. And it is 
almost like having a specially vetted unit. When you ask for 
special privileges, which we need to do, we need to have 
special obligations, clearances to make sure that this doesn't 
become a prime target to slip contraband and terrorists 
through. And we are certainly going to make sure that these 
type of things are there. But we also have to make sure that 
you have got the technology and the computers, because it 
doesn't do us any good to set up a system if you can't get the 
data in.
    One last question on that. There have been proposals to put 
GPS transponders on cargo. I assume that the current system 
wouldn't handle that. Would ACE be able to have the capacity to 
handle that?
    Ms. Tischler. Yes. But I have to tell you that we were--in 
fact, Mr. Koch, who is on your next panel, and I were speaking 
about this very thing this morning. There are a number of 
vendors out there that are talking to Customs and 
Transportation about what would constitute a smart container 
and how you would in fact track inventory around. Just 
yesterday a vendor came in to talk to us about it and I 
actually gave him Mr. Koch's name and phone number because we 
would like to pilot something like that soon. And it is just a 
function of what it is.
    We understand that the Department of Defense might have had 
a system they used, and are still using, actually, but they 
developed it during the Gulf War to track their ammunition and 
munitions around. So if that is true, then it would be 
something that would be very helpful. But we could not handle 
this unless our partners agreed to some type of test.
    Mr. Souder. These are difficult questions. We rode in to 
the LA Harbor with some of the sea marshals, which meant 
boarding a ship at 4 something in the morning. It was moving a 
little faster than I thought it was going to be when--it didn't 
look like we were moving until you get ready to step across 
that--being a landlubber.
    But one of the things that is apparent--and this particular 
one, it was a cruise ship. But in these ships that, even if you 
have the integrity of the system at the point of origin, in 
the--and we are checking it, at least partially as they come 
in, we also have to have some assurance in the transshipment 
process that something isn't altered or added. And many of 
these flags that the ships are coming in under are 
questionable.
    And that--and that, even in the cruise ship that we 
boarded, it was very noticeable as we went through with the 
people from INS and Customs and down into the underbelly of the 
ship and talked to the people who were actually controlling it, 
they were up with the harbor pilot much like the sky marshals 
do as they enter the closeness of the harbor, but on top of 
that, the--the operating crew not only didn't speak English, 
they spoke a multitude of languages. And that is why this 
other--these other questions of tracking the cargo inside 
become critical.
    And it isn't that we have to do every piece, but we need to 
make enough uncertainty and enough accountability that the 
American public has confidence. Because, like I mentioned 
before, September 11th, none of us knew it was coming. Our 
level of accountability in Congress and the government and the 
potential reaction if we have further problems is going to be 
so out of proportion to what the reaction was even in September 
11th, that we are preparing over a period of a number of years 
in our computer systems, our infrastructure. And I hope you are 
looking at all of those interrelationships. Because we want to 
make the commerce work. And we need to know from you where the 
problems are and what the actual resource costs are that we 
have to look at here in Congress when we make these abstract 
decisions that sound good, and then tell you to go do it and 
don't give you the money.
    Ms. Tischler. That is correct. And, in truth, it is an 
unknown universe right now. That is why it is so important to 
partner with the trade. Because they have got a piece of the 
puzzle. Transportation--I don't mean the department, I mean the 
trade portion of transportation has in fact used some of this 
technology over the years. We put a technology subcommittee 
together under CTPAT to explore all of the technology that the 
different transportation universes were using, sea, land, air, 
rail. It is amazing because they didn't know pretty much about 
what each other were using, which meant there is a lot of 
duplication of effort.
    And so part of CTPAT is trying to avoid the duplication and 
turn everybody on to technology. That seems to be the best 
practice.
    Mr. Souder. Thank you. Mr. Cummings, do you have additional 
questions?
    Mr. Cummings. Just a few other questions.
    You briefly mentioned Operation Green Quest. Would you talk 
about that a little further, please.
    Ms. Tischler. Operation Green Quest is an antiterrorism 
money-laundering operation that Customs, Treasury and the 
Justice agencies stood up in October, to really get at the soft 
underbelly, if you will, of terrorism.
    I personally--I have been in law enforcement for almost 31 
years now, and I have watched us try to interdict narcotics and 
do narcotics investigations. But my background is money-
laundering. And I am a firm believer in taking the money out of 
the equation. And so what Green Quest was designed to do 
basically was trace and track illicit funds or licit funds that 
were in fact being used for terrorist purposes.
    Mr. Cummings. It was interesting that--the other day one of 
the Cabinet members over there in Afghanistan made a--made a 
speech about trying to make sure that, you know, illegal drugs 
would be stopped and the growing of various crops leading to 
the distribution of illegal drugs. And I was just wondering, if 
it is not too confidential, are we looking at Afghanistan?
    Ms. Tischler. We have always looked at Afghanistan because 
of the heroin trade. Similar to what has happened with Columbia 
with the FARC, the cocaine traffic has fueled the FARC down 
there. And we know darn well that the heroin trade has been 
fueling bin Laden and others who would seek to destroy our way 
of life.
    So we have been actually dealing with it from a narcotics 
illicit proceeds perspective for some time now.
    Mr. Cummings. Uh-huh. And are we--does this--has Customs at 
all worked with the government of Afghanistan, giving advice or 
anything of that nature, to your knowledge?
    Ms. Tischler. Up to now? No.
    Mr. Cummings. You mentioned that the Customs, Department of 
Transportation working group presented a report to the Office 
of Homeland Security making recommendations to improve 
container security. Is that report available publicly?
    Ms. Tischler. I don't know if it has actually gone to the 
coordination committee PCC or not. I know that it was due to 
go. Then they were going to review it and open it up for 
review.
    Mr. Cummings. And so the next step is opening it up for 
review? It has several recommendations?
    Ms. Tischler. It has a number of recommendations. I think 
there are 25 recommendations.
    Mr. Cummings. And I take it that the Office of Homeland 
Security would have a lot to do with making sure that those 
recommendations, the ones that they felt appropriate, went into 
effect. Is that accurate?
    Ms. Tischler. I think that they are submitting it to them 
for their thoughts. Some of the recommendations will require 
funding. I am sure that we will have to take it to Congress to 
discuss these recommendations.
    Homeland security, I think, will spearpoint these 
recommendations once they finish looking at the report and 
digesting the elements.
    Mr. Cummings. Mr. Chairman, I yield the balance of my time 
to Congressman Davis, if you had any questions.
    Mr. Souder. Mr. Davis will get 5 minutes plus any 
additional.
    Mr. Davis. Thank you very much, Mr. Chairman. I want to 
thank the gentleman for yielding. I also want to thank you and 
commend you, both you and Representative Cummings, for the 
diligence with which you have pursued this whole issue and the 
diligence that you are taking to look at the whole question of 
drug trafficking, the whole business of crime, criminality and 
even looking at the whole question of prevention and how we can 
really get a handle on drug policy that is effective for our 
country.
    I also want to thank you for your testimony. I have enjoyed 
listening to your responses. The questions that sort of come to 
mind in terms of border effectiveness obviously require a great 
deal of cooperation between countries. What are our experiences 
right now in terms of the level of cooperation that we are 
receiving from other countries with whom we have to interact at 
the borders?
    Ms. Tischler. Well, I would like to talk about Canada. We 
have always cooperated with Canadian Customs and vice versa. 
And we deal with the RCMP, frankly, on a recurring basis. The 
Smart Border Accord that our two countries have struck, I 
think, will go a long way to increasing that cooperation.
    We have the same focus, how to keep terrorists out of the 
United States and possibly out of Canada and still have that 
trade go through which is so critical to the border areas.
    So I've got nothing but pluses for the Canadians. And we 
have recently started the same type of proposed accord with 
Mexico. I think President Fox has gone a long way to 
straightening things out in Mexico. And we've always dealt the 
same thing with Mexican customs on a very positive level. 
They've recently within the last couple of years, they have a 
whole new cast of managers that are managing Mexican customs. 
We have been dealing with them in enforcement and working 
groups that have to do with the trade. Things have been coming 
along quite well as far as we are concerned.
    As far as our counterparts overseas, we deal extremely well 
with the British, the French, the Germans. In Asia, our 
cooperative efforts extend to Thailand and Singapore. And we 
just opened an office actually in India.
    I really truly believe in a global trade environment, 
Customs has got to be able to maintain positive relationships 
with not only our counterparts but their government as well. 
And so far over the years, it's worked out quite well. There is 
a World Customs Organization, actually, where all the countries 
come together with Customs and we deal quite a bit with them as 
well as with the Interpol to really establish and keep up these 
cooperative efforts.
    Mr. Davis. As we increase reliance upon technology, and as 
there are continuing advances in technological development, are 
we still getting the human person power, I mean, the reliance 
obviously upon the expertise of agents, of humans who work in 
the process? Are we getting what we need in terms of interest 
and in terms of people being interested in entering the 
service?
    Ms. Tischler. We think so. Customs relies on a tiered-up 
process, anyway. We have lines of defense. For instance, in 
narcotics we have inspectors, we have our dog handlers with our 
canines, of course, and the NII, the technology all working in 
concert with each other. And so now that we are expanding, we 
are fortunate enough to get a number of personnel resources 
committed off the 2002 supplemental and the initiatives, and we 
are recruiting for an individual that has--of course, not too 
hard with these kids these days because they are much better at 
computers than I ever was, that's for sure--but we are looking 
for people with specific interests. Language capabilities, 
multicultural issues come into play here. So we are trying to 
draw from a very broad segment of the population in order to do 
the best customer service in law enforcement that we can.
    Mr. Davis. Representative Meeks and I spent a great deal of 
time working with Commissioner Kelly during the past 
administration and we saw some of the new processes and 
procedures that were being put into place designed to cut down 
on the number of complaints relative to the issue of profiling 
and the concerns that Representative Cummings expressed a 
little bit about. Are we finding that the new technology, the 
screening devices, for example, that were put in, have they 
reduced significantly, to your knowledge, the number of 
complaints about strip-searching and profiling and that kind of 
issue?
    Ms. Tischler. I had been explaining previously the level of 
our complaints as well is way down. Way down. I couldn't point 
specifically to technology. I would like to think it was our 
training and our--and in the bicultural areas that we have been 
doing and our personal search training and the levels of review 
that have to be undertaken before somebody can, in fact, search 
someone bodily. That is actually contributing to that. Our body 
scan machines have been useful, but they are on a voluntary 
basis and most people who are faced with a search actually 
decline them. They would rather be hand-searched.
    Mr. Davis. And so you are monitoring that aspect of the new 
developments closely so that we know that there is, in fact, 
adherence to the new policies and procedures? I mean that's a 
real part, I would assume.
    Ms. Tischler. Yes, sir, it's part of our internal control 
system.
    Mr. Davis. Well, let me commend you in terms of--I mean, I 
think there have indeed been improvements in that arena. 
Obviously, we are never out of the water. We've never done as 
well as we can do. I think we are always becoming. But I 
certainly have not received the number of complaints that I was 
getting, you know, coming out of the area where I live and 
spent a great deal of my time in Chicago, where there is a 
tremendous amount of traffic. And so I certainly want to 
commend you and commend the agency for progress in that arena.
    I have no other questions, Mr. Chairman. And thank you very 
much.
    Mr. Souder. Thank you, Mr. Davis. And thank you, Ms. 
Tischler, for your testimony today. We'll have some additional 
written questions, but it was very helpful as we look at some 
of these complex matters. And please accept on behalf of the 
Customs department our sincere thanks for all the hard work in 
the field from the many agents who have worked overtime and who 
have been so steadfast.
    In Port Angeles, we went over and met with Diana Dean, and 
you made a reference earlier to the individual experience and 
skill of the customs officer on the ground. So much of this is 
instinct, and that with people who see something a little 
different on the bottom of one truck and lead to a huge bust.
    Even with all the technology, it's also the agents in the 
field. And we need to make sure they have the best technology, 
but we also need the experience in the training. Thank you very 
much for being here today.
    Ms. Tischler. Thank you, sir.
    Mr. Souder. If the second panel could now come forward. Mr. 
Larry Johnson, Ms. Colleen Kelley, Mr. T.J. Bonner, Mr. 
Christopher Koch, Mr. John Simpson, and Mr. Steve Russell.
    We will wait until you all get seated and then we will ask 
you to stand up.
    If you could each stand and raise your right hand. It is 
our customary procedure as an oversight committee to swear in 
each witness.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that all the witnesses 
responded in the affirmative. You have now joined in this 
distinguished room--this is the committee that has done 
everything from the travel office to the China investigations 
to Waco and oversight investigations since--for a number of 
years since we have taken over. And it's our customary 
procedure to do that.
    Your testimony today, even though it's for many of you a 
long way to travel for 5 minutes, and with the questions, this 
is building a systematic hearing record on border security in 
particular and the interrelationship of Congress, INS and 
security that isn't matched anywhere else in the system. 
Because we have been doing field hearings in the North, field 
hearings in the South. I have had all the commissioners in from 
the different agencies and we want to make sure here in 
Washington that we hear from the business side as well. These 
are huge questions, as we look at the multiple missions of 
these agencies. And if we throw them together, how is that 
going to impact our trade and our security efforts?
    So I thank each of you for taking this time today and being 
part of our efforts to sort this through. We will begin with 
Mr. Johnson, a very frequent witness over the years to this 
committee, as we have dealt with--this subcommittee in 
particular as we have dealt with counterterrorism questions 
long before the whole world was focused on counterterrorism. We 
appreciate your tremendous insights.

     STATEMENTS OF LARRY C. JOHNSON, CEO AND FOUNDER, BERG 
ASSOCIATES LLC; COLLEEN M. KELLEY, NATIONAL PRESIDENT, NATIONAL 
  TREASURY EMPLOYEES UNION; T.J. BONNER, PRESIDENT, NATIONAL 
   BORDER PATROL COUNCIL, AMERICAN FEDERATION OF GOVERNMENT 
EMPLOYEES; CHRISTOPHER KOCH, PRESIDENT, WORLD SHIPPING COUNCIL; 
JOHN SIMPSON, PRESIDENT, AMERICAN ASSOCIATION OF EXPORTERS AND 
    IMPORTERS; AND STEVE RUSSELL, CHAIRMAN AND CEO, CELADON 
       TRUCKING SERVICES, AMERICAN TRUCKING ASSOCIATIONS

    Mr. Johnson. Thank you, Congressman Souder. It's a 
privilege to be with you again today. I ask that my full 
statement be made a part of the record. Over the last 3 years, 
in my company and current business, we spent a lot of time in 
Latin America, and specifically in the Colon Free Zone of 
Panama, doing undercover operations and tracking product 
counterfeiting. In the course of doing that, we have gotten 
some insights that address this whole issue of both border 
security, port security and some gaps that need to be closed, 
and in my statement I outline what I think are five broad areas 
that need to be addressed.
    One of those in particular is the need for clearinghouse 
with the whole security technology R&D. Right now the U.S. 
Government is spending a lot of money in a lot of different 
arenas in a lot of different agencies trying to develop 
technology. But at the end of the day there is no one place 
that is helping sort out and establish priorities.
    So, for example, a lot of what is now the TSA center up in 
New Jersey, there is efforts to develop explosive detection 
systems, separate efforts to develop cargo systems. This much I 
know: The U.S. Government and the people of the United States 
have an enormous talent and scientific ability, and when you 
put that together with the talents that are resident in the 
national laboratories, it is beyond me why we have not been 
able to harness all of that into a concentrated, if you will, 
Manhattan effort to develop effective security technology. 
Because there is a legitimate question here about you don't 
want to stop commerce by unnecessary inspections, but there are 
ways to develop that technology. The key for it is money has to 
be appropriated. We saw this with the explosive detection 
systems. It was recommended back in 1990 after Pan Am 103 to do 
it, but Congress and the administrations, both Republican and 
Democrat, never appropriated the money to put those machines 
and get them out and create a market for it until after 
September 11th. And we cannot wait until we have a disaster in 
a port to do that.
    A second issue--and I endorse the concept of putting INS 
and Customs and Coast Guard together in some fashion. And I 
think if I had to weigh in on one side, I think it would be 
better to bring INS and Coast Guard under Customs as opposed to 
subjecting others to the Department of Justice.
    But right now when you have three different chiefs 
directing things, that means nobody is in charge and at the end 
of the day there is a great need for coordination in this 
front.
    And I outline in my testimony the problem of stovepiping of 
information. Not just keeping information within the Federal 
agencies, where DEA doesn't talk to Customs and doesn't talk to 
FBI, and there is not a flow of information across that 
direction, but you also see in my testimony an e-mail I 
received from a law enforcement officer in the United States 
who worked out in the West Coast near a U.S. military base, and 
he recounts his frustrations of making repeated efforts first 
to alert the FBI to what he thought was a Middle Eastern cell 
operating near this military base that handles nuclear weapons. 
And the FBI said--and this was 3 years ago--we're not doing 
profiling and we're not going to focus on it.
    He has subsequently gone back to them because he has 
identified some activities that relate to Hispanics and the FBI 
said, no, no, we are focused only on the Middle Eastern side.
    What you have here is a law enforcement officer who is 
extremely frustrated with what he sees as the inability of 
Federal officials to receive the information that State and 
local cops have, as well as for the State and local cops to get 
that information where they can be a part of the national 
security effort.
    The last point I'll make--and I intended to bring a Power 
Point presentation for you today, and I admit that I did not 
know how to properly use zip files so I sent the wrong one--but 
it illustrates the problem of visas and making sure that we go 
after these overseas in the right way.
    Now the picture I was going to show you was one of Walid 
Zayed Massis. Mr. Zayed, I ran across in the course of doing an 
investigation in product counterfeiting. What made him even 
more interesting after we got him on this charge was he was the 
first individual convicted in Panama for money-laundering. But 
in 1989 he published a book that its English translation is 
``Palestine: The Burning Silence.'' He also happens to be the 
intelligence chief for the PLO in Central and South America and 
is on the record calling for the extinction of Israel. He is 
involved and has links to groups and individuals that are 
involved in terrorism.
    This individual also happens to have a company that is 
incorporated in the United States. Now when you look at U.S. 
visa law, there is nothing in U.S. visa law, because he has not 
been convicted of drug trafficking, and because the only other 
category for excluding him on is this vague thing called moral 
turpitude, we have made efforts in the course of our business 
to get people like Mr. Zayed blocked from getting visas to come 
to the United States.
    In another instance, we ran across an individual who was 
not engaged in terrorism, but was using his trips to the United 
States every year to go to U.S. companies' marketplace, 
identify the new products, take pictures, go back home, place 
an order in China, and then the Chinese would manufacture these 
counterfeit items that he would then bring in. He had been 
convicted in Venezuela. It has gone all the way to the Supreme 
Court. The conviction has been upheld. But despite that 
conviction, when we went to the U.S. Embassy and said block 
this individual from coming into the United States and using 
the United States as a tool for attacking U.S. companies, the 
U.S. Embassy said under visa law we cannot stop him. Product 
counterfeiting is not moral turpitude.
    Now those kinds of gaps I find completely senseless. I 
mean, this is a place where we need to have common sense come 
into the picture. We don't want to block people who have a 
legitimate desire to come to the United States. But the 
individuals who are engaged with the criminal activity, the 
drug trafficking, the money-laundering, and potentially 
terrorism, it is a small group of people. But in my experience, 
they have been very effective exploiting the loopholes that 
exist in both U.S. ports of entry and in U.S. law.
    [The prepared statement of Mr. Johnson follows:]

    [GRAPHIC] [TIFF OMITTED] T5608.013
    
    [GRAPHIC] [TIFF OMITTED] T5608.014
    
    [GRAPHIC] [TIFF OMITTED] T5608.015
    
    [GRAPHIC] [TIFF OMITTED] T5608.016
    
    Mr. Souder. Well, thank you for that fairly discouraging 
testimony.
    Mr. Johnson. Sorry about that.
    Mr. Souder. And if you would like to submit the other power 
points for the record.
    Mr. Johnson. I will get that to you and will figure out how 
to use it properly.
    Mr. Souder. Thank you very much, Mr. Chairman. Ms. Kelley, 
you are next.
    Ms. Kelley. Thank you, Chairman Souder, Ranking Member 
Cummings. I appreciate the subcommittee holding this hearing 
today and having the opportunity to testify on the enhancement 
of border and port-of-entry security. As the president of NTEU, 
I have the honor of leading a union which represents over 
12,000 Customs employees across the country. Customs inspectors 
and canine enforcement officers make up our Nation's first line 
of defense in the wars on terrorism, on drugs, and on illegal 
contraband.
    The U.S. Customs Service continues to be the Nation's 
premier border agency by interdicting more drugs than any other 
agency. Customs is also a revenue collection agency, collecting 
an estimated $25 billion in revenue each year on over 25 
million entries involving $1.3 trillion in international trade 
every year.
    One of the most discussed ideas being debated on the topic 
of border and port-of-entry security is the idea of border 
agency consolidation. And the most talked about border agency 
consolidation proposal, although we have not yet seen one from 
the administration, would combine the Customs Service, INS and 
the Border Patrol into one agency under the jurisdiction of the 
Department of Justice.
    I find this proposal to be extremely troubling. 
Unfortunately, this type of a border agency consolidation plan 
would not improve but, in fact, exacerbate current border 
problems. The management of the Justice Department and its 
recent highly visible errors indicate that the lack of a sound 
organizational structure with regard to the border security 
agencies currently under its jurisdiction needs to be looked at 
very carefully.
    Consolidating these three organizations would take 
attention away from critical homeland security priorities. Each 
one of these agencies' missions is very unique and it should 
remain within their current agency structure. Ignoring each 
agency's field of expertise will lead to losing the expertise 
that agency currently possesses.
    Customs personnel expertise include using advanced manifest 
information on goods to improve targeting systems to detect 
questionable shipments as well as deploying state-of-the-art 
inspection technology and advanced computer systems at land 
borders, at airports and at seaports.
    Another popular argument in favor of consolidation involves 
the perceived lack of intelligence-sharing between border 
security agencies. Since September 11th, Customs and INS 
receive FBI intelligence briefings. These briefings should have 
been happening on a regular basis even before September 11th. 
But these briefings demonstrate that consolidation isn't 
necessary to improve intelligence-sharing. There are other ways 
to do it and there needs to be other ways to do it.
    In Customs' case, no one doubts that the level of 
conveyances of cargo and of passengers has increased 
dramatically, but unfortunately, its resources have not kept 
pace. In fact, Customs' internal review of staffing done over a 
year ago, which they call the resource allocation model or RAM, 
shows that Customs needs over 14,000 additional positions just 
to fill its basic mission, and that was before September 11th.
    For instance, with increased funding, modern technologies 
such as the VACIS, which is the vehicle and cargo inspection 
systems, could be acquired. However, adequate and consistent 
funding to purchase, to operate, and to maintain these 
technologies has not been forthcoming. The President's fiscal 
year 2003 budget requests a token increase from last year's 
appropriations and is simply inadequate to meet the needs of 
the Customs personnel.
    The recent deployment of over 700 unarmed National Guard 
troops to our borders clearly shows the need for more Customs 
personnel. These troops need to be removed from the borders and 
quickly replaced with highly trained Customs personnel.
    Last year, Congress acknowledged the shortage of staffing 
and resources by appropriating $245 million for Customs 
staffing and for technology, and these were included in the 
Department of Defense appropriations.
    We urge the Congress to again increase the funds available 
for additional inspectors and equipment in areas around the 
country that are experiencing these severe shortages. The 12 
and 16-hour shifts and working 6 and 7 days in a row, which Ms. 
Tischler testified to, cannot continue without putting the 
safety, the health and the effectiveness of the Customs 
inspectors who are doing this work at risk.
    In addition to appropriations, Customs also receives funds 
from the COBRA user fee account. This funds all inspectional 
personnel overtime as well as approximately 1,100 Customs 
positions across the country. This account is currently at a 
point where there is a significant shortfall expected in fiscal 
year 2002. To help remedy this problem, the President's fiscal 
year 2003 budget proposes to temporarily increase two COBRA 
fees to raise an additional $250 million for personnel overtime 
and resource needs. Unfortunately, Congress has been extremely 
reluctant in the past to raise these fees, so it seems unlikely 
that this additional money will ever materialize. The COBRA 
fund is currently set to expire on September 30, 2003, unless 
it is reauthorized by Congress before then. COBRA must be 
reauthorized or Congress must appropriate additional funds to 
make up for the loss of these user fees in order for Customs to 
continue to be able to effectively deliver its mission.
    I thank you again for the opportunity to testify today and 
look forward to any questions you might have.
    [The prepared statement of Ms. Kelley follows:]

    [GRAPHIC] [TIFF OMITTED] T5608.017
    
    [GRAPHIC] [TIFF OMITTED] T5608.018
    
    [GRAPHIC] [TIFF OMITTED] T5608.019
    
    [GRAPHIC] [TIFF OMITTED] T5608.020
    
    [GRAPHIC] [TIFF OMITTED] T5608.021
    
    [GRAPHIC] [TIFF OMITTED] T5608.022
    
    [GRAPHIC] [TIFF OMITTED] T5608.023
    
    [GRAPHIC] [TIFF OMITTED] T5608.024
    
    [GRAPHIC] [TIFF OMITTED] T5608.025
    
    Mr. Souder. Thank you very much. As I said earlier, I hope 
both you and Mr. Bonner will communicate to your members the 
appreciation on behalf of Members of Congress, and also the 
American people, for all the overtime hours, for the hard work 
that you have been giving on the border at this critical time 
of our Nation's need. You had been doing it before September 
11th, but everybody is aware of it now and the overtime 
pressure is very much appreciated. And we have met lots of your 
members and agents at the different borders. I asked them to 
testify at different field hearings, and it has been a great 
learning experience for us, too, to see it firsthand what you 
do and the challenges.
    Ms. Kelley. Thank you very much.
    Mr. Souder. Mr. Bonner.
    Mr. Bonner. Mr. Chairman and members of the subcommittee, 
on behalf of the National Border Patrol Council, which 
represents over 9,000 nonsupervisory Border Patrol employees, 
thank you for this opportunity to present our views on steps 
that can be taken to improve security and efficiency at our 
Nation's borders and ports of entry.
    The recent events involving the INS has given new life to 
many proposals for organizational change, some beneficial and 
some detrimental. Some of these would effectively eliminate the 
INS, while others would absorb all or part of it into larger 
consolidated agencies. There are other proposals that would 
improve border security technologies. One of these would 
enhance the ability of the INS to retain its single greatest 
asset, experienced personnel, by authorizing an increase in the 
pay level of border agents and immigration inspectors.
    This brings me to the most important point I wish to make 
this morning. The biggest problems facing the INS will not be 
solved by moving boxes around on an organizational chart or 
enhancing technology. In our view, the solution lies in two 
primary areas: one, holding senior managers directly 
accountable for their actions and/or inaction; and two, 
addressing the staggering attrition rate within the INS.
    Accountability of high level managers must be established 
quickly in order to restore public confidence and employee 
morale. Recent calls for authority to terminate the employment 
of rank-and-file employees without regard to due process are 
misinformed. Federal managers have always had the ability to 
terminate the employment of any employee for misconduct or poor 
performance and routinely exercise this power.
    Depriving employees of due process protections would do 
nothing to enhance accountability, but would certainly 
exacerbate an attrition rate that is already unacceptably high. 
According to statistics compiled by INS, the attrition rate for 
Border Patrol agents is currently about 15 percent and will 
probably rise to 20 percent by the end of the fiscal year.
    Among immigration inspectors, the current attrition rate is 
10 percent and may rise to 15 percent before the fiscal year is 
over. In our view, a key element of improving security at our 
Nation's borders is addressing the three main causes of 
attrition: low pay, limited lateral and promotional transfer 
opportunities, and lack of job satisfaction.
    The National Border Patrol Council has long supported the 
goal of separating immigration enforcement and immigration 
service functions. While there will always be a need for 
coordination between these two functions, it seems clear that 
greater mission clarity for each is likely to improve the 
effectiveness of both.
    The various consolidation proposals, on the other hand, do 
not have our support. While on the surface it might appear that 
such measures would enhance coordination and efficiency, a 
closer examination shows that they would have the opposite 
effect by creating unwieldy bureaucracies. There are over 45 
Federal agencies that have some homeland security 
responsibility as well as thousands of State and local 
agencies.
    In retrospect, it is obvious that none of the consolidation 
proposals being discussed would have prevented the terrorist 
attacks of September 11th. The most important step that can be 
taken to safeguard against future attacks is the creation of a 
computer data base of all suspected terrorists that can be 
easily accessed by all law enforcement personnel in the 
country. It is much more likely that a terrorist will be 
encountered by a law enforcement officer in the months or years 
that he or she is living in our country than in the moments 
that he or she crosses our borders. Without the tools to 
recognize such terrorists, however, it is doubtful that they 
will be detained when they are encountered.
    As this subcommittee and Congress seek ways to enhance 
border security and find solutions for the frustrating problems 
at the INS, we urge you not to lose sight of the thousands of 
agents, inspectors and other employees who dedicate themselves 
to the difficult, dangerous and often thankless task of 
enforcing the law along our Nation's borders. As limited 
Federal dollars are being committed to border security 
initiatives, some of those funds must be directed toward 
keeping these experienced employees on the job.
    I again thank you for the opportunity to address this 
subcommittee and look forward to answering any questions that 
you might have.
    [The prepared statement of Mr. Bonner follows:]

    [GRAPHIC] [TIFF OMITTED] T5608.026
    
    [GRAPHIC] [TIFF OMITTED] T5608.027
    
    [GRAPHIC] [TIFF OMITTED] T5608.028
    
    [GRAPHIC] [TIFF OMITTED] T5608.029
    
    [GRAPHIC] [TIFF OMITTED] T5608.030
    
    [GRAPHIC] [TIFF OMITTED] T5608.031
    
    Mr. Souder. Thank you very much for your testimony. Mr. 
Koch.
    Mr. Koch. Thank you, Mr. Chairman. The World Shipping 
Council represents the international liner shipping industry, 
and what the members of this industry do is they carry about 
two-thirds of the value of all of America's oceanborne 
commerce. To give you a perspective, in 2001 that was 4.8 
million containers of export cargo going through our ports, 7.8 
million containers of import cargo coming through our ports. 
Another way to think it, $1.1 billion worth of goods moving in 
and out of U.S. ports every single day, which goes back to the 
point both of you gentlemen made about the importance of trade 
and what is at issue here.
    On September 11th we were all faced with the 
vulnerabilities of a free society and what America is looking 
at here. In the aviation context we saw what happened when four 
planes were hijacked, the people who were killed. From just a 
transportation perspective, the aviation industry was up and 
running--starting to be up and running 3 days after September 
11th.
    When you look at the ocean shipping industry, the container 
industry in this situation, if there were four containers which 
had an incident on a single day, the government's response now 
is not sufficiently well organized to get trade up and running 
in 3 days. The response, as Commissioner Bonner and the 
Commandant of the Coast Guard has said, would be we will close 
our ports. In essence, our response is we are going to blockade 
ourselves.
    It is incumbent upon the government to develop the 
organizational structure and the measures necessary to put in 
place to make sure that we don't do that, because all that does 
is make our industry a bigger target for terrorists because of 
the economic damage that would result from such an event.
    So our position is that this issue is not just about 
transportation. This issue is about trade. It's about the 
economy, the economic health of our country, jobs. And not just 
in our country, but with all of our trading partners as well.
    After September 11th, as was stated earlier, when the 
Canadian border was shut down for a couple of days, or at least 
slowed down for a couple of days, the auto plants in Detroit 
almost were forced to close. It is not just auto plants in 
Detroit that depend on Canadian commerce, it is all of American 
commerce that is hooked into this intermodal international 
transportation network. There are many aspects of protecting 
this infrastructure from terrorism. There is dealing with the 
ships, there is dealing with the ports and the marine 
terminals, there is credentialing people, there is the 
information process about what information does the government 
want, when does it need it? And there is also the container 
itself.
    Let me talk for a second about the government. I think 
there is pretty good understanding being developed for what the 
vision ought to be for international containerized shipments, 
and the vision is that we ought to have a secure supply chain, 
we ought to have an information process where the government 
has enough information about a container that if it has reason 
to want to inspect it, it can do so at the port of loading 
before it is put on a ship and sent to the United States. 
Inspecting containers in the U.S. port of discharge is the 
wrong time to do it, and it is the wrong place to do it.
    So as we go through this, what do we need to do? We need to 
define and develop the rules and regulations that will create a 
secure supply chain. And at customs the CTPAT initiative that 
Bonnie Tischler talked about is an example of doing. We need to 
test technology development standards and implement them. We 
need to credential people. We need to develop an information 
system that allows the government to determine what containers 
need this inspection before loading and have those capabilities 
both here and abroad.
    Now I recognize this is a difficult issue and our 
government is struggling with it. Some of the struggle is just 
because the issue is a hard one to deal with. But part of the 
struggle is also because our government is not sufficiently 
well organized to deal with the issue itself. I would say it 
has done a fine job on dealing with the issue of ships. The 
Coast Guard has shown leadership, both of addressing port 
security and vessel security in U.S. ports and at the 
International Maritime Organization, because responsibility is 
clear, they are focused on it and they are doing it.
    We're doing a better job at port security, but that isn't 
moving quite as well along. But to undertake the steps 
necessary to secure the international container cargo security 
issue is where we are really, I think, in need of better focus. 
We have the Customs Service who regulates trade. They have come 
up with a CSI initiative and the CTPAT initiative. We have the 
Coast Guard who deals with ships, but also trying to deal with 
ports and other issues at the IMO, and now within DOT we are 
standing up the Transportation Security Administration where 
this mission has not been terribly well defined.
    The U.S. Government needs focus and organizational clarity. 
Furthermore, we cannot persuade foreign governments to join us 
in doing this unless we have decided clearly within our own 
government what we're willing to accomplish and can speak with 
one coherent voice. Admiral Loy, Commandant of the Coast Guard, 
said 2 weeks ago when he spoke before the Port Association, 
we're talking about what we ought to do rather than getting on 
with the job of getting it done. We believe the Admiral is 
correct.
    Some of the questions that I would submit kind of reflect 
this: Who is responsible for the information systems that will 
support enhanced security analysis? Customs, which the Senate 
bill addresses? Is it DOT, which the House bill addresses? What 
are the government's informational requirements and who is 
going to decide what those requirements are? Who is responsible 
for setting cargo security rules? Who is responsible for 
determining how we manage cargo security and trade if there is 
an incident? How are we going to manage and make sure we don't 
have the blockade scenario that I mentioned at the beginning of 
my comments?
    Finally, to conclude--as our testimony does, which I ask to 
be put a part of the record--that four principles be kept in 
mind as we do all this.
    First, we need to act and get legislation to facilitate 
this process. We need a unified strategy. One person speaking 
on the issue. We need clearly mandatory rules so that everybody 
in the supply chains know what they have to do and are held to 
it. We need a security regime that allows for a free and 
efficient flow of trade. And finally we must reflect on the 
fact that if we're going to effectively extend our borders 
beyond U.S. jurisdiction, we need international cooperation. We 
need to coordinate with our trading partners, and so we will 
need a coherent international effort as well. Thank you, Mr. 
Chairman.
    [The prepared statement of Mr. Koch follows:]

    [GRAPHIC] [TIFF OMITTED] T5608.032
    
    [GRAPHIC] [TIFF OMITTED] T5608.033
    
    [GRAPHIC] [TIFF OMITTED] T5608.034
    
    [GRAPHIC] [TIFF OMITTED] T5608.035
    
    [GRAPHIC] [TIFF OMITTED] T5608.036
    
    [GRAPHIC] [TIFF OMITTED] T5608.037
    
    [GRAPHIC] [TIFF OMITTED] T5608.038
    
    [GRAPHIC] [TIFF OMITTED] T5608.039
    
    [GRAPHIC] [TIFF OMITTED] T5608.040
    
    [GRAPHIC] [TIFF OMITTED] T5608.041
    
    [GRAPHIC] [TIFF OMITTED] T5608.042
    
    [GRAPHIC] [TIFF OMITTED] T5608.043
    
    [GRAPHIC] [TIFF OMITTED] T5608.044
    
    [GRAPHIC] [TIFF OMITTED] T5608.045
    
    Mr. Souder. Thank you very much. Mr. Simpson.
    Mr. Simpson. Thank you, Mr. Chairman. I actually think I 
could have gotten a better seat to a Redskins game.
    Mr. Souder. If you wanted to see them play.
    Mr. Simpson. I'm going to echo some of what my colleagues 
have said. Importers and exporters are well aware, and have for 
years been concerned about cargo and port security, primarily 
because of the potential for merchandise pilferage and also to 
support our government's effort to keep illegal drugs out of 
cargo containers.
    Since September 11th, we've been acutely aware of the 
potential for legitimate trade to be used to conceal entry into 
the United States of dangerous persons or weapons of mass 
destruction. However, we think it's important to emphasize the 
contribution that our international trade makes to our national 
security.
    The United States is the strongest Nation on earth, not 
because we are the most populous Nation, not because we're the 
best endowed with natural resources or, as we like to think, 
because God likes us best, but because we're the richest Nation 
on earth. That is what gives us the power to project our 
policies militarily and diplomatically around the world. Anyone 
who talks about shutting down our trade with other countries in 
the interest of national security simply just doesn't 
understand the basis for our national security, which is our 
wealth. And our international trade makes a significant 
contribution to the economy of the United States.
    So the critical thing is to balance security at the borders 
with maintenance of a robust international trade with other 
countries.
    We think there are a couple of keys to doing that. One is 
information. It's critical that our government get information 
and get it in an electronic format. Whenever a piece of 
information required by the government has to be delivered on 
paper, there's a significant risk that the piece of paper in a 
cargo container will not be at the same place at the same time 
and that creates the likelihood that a container of potentially 
hazardous materials will come to rest at a place where it 
wasn't expected to be and it isn't prepared to handle it.
    There is also the fact that holographic certifications or 
signatures are simply not as easy to authenticate as electronic 
signatures, so from a security standpoint alone, having 
information in an electronic format is critical.
    A second thing, and this was referred to by Mr. Koch, is 
that there are 40 agencies of the Federal Government that 
regulate trade at the border. A simple shipment of fresh 
strawberries from Mexico into the United States involves 
information collection by seven different agencies.
    Our government needs to have one agency acting as an agent 
on behalf of all other parts of the Federal Government as the 
information collector. We recommend that be the Customs 
Service, but we are agnostic on that. The critical thing is 
that there be one window through which information can be 
transmitted, and there has to be the potential for that 
information to be shared and compared among all of the agencies 
that collect it.
    A third critical thing about the information is that we 
need to go to the best source. It is simply not feasible to 
levy more stringent requirements on carriers for the accuracy 
of manifest information. Carriers will never be able to 
authenticate the description of what's in a sealed cargo 
container. They can only do that if they had the opportunity to 
open it and examine the contents, and that's simply not 
feasible. So it is critical that our government look to the 
best source of information and not simply impose a reporting 
burden on the party that is nearest at hand, whether that be 
the importer or carrier.
    A fourth point we would like to make about information is 
that the security response to terrorism, the commercial 
response, if you will, like the military response, has to be 
multilateral. We can't begin the security process at our 
borders. There are a couple of things that we think could be 
done to improve our security by pushing the perimeter out 
beyond our border.
    For example, we would recommend that the trading 
governments of the world develop unique consignment reference 
identifiers for cargo so that a shipment of goods can be 
tracked all the way through from the exporter to the 
destination in the United States with a single identifying 
code.
    A second thing we would recommend, and here I'm going to 
differ from everyone else who has spoken before, is that our 
government look a little bit differently at how we provide for 
security for trade coming across the border with Canada. In the 
interests of emphasizing a point, Mr. Chairman, I'm going to 
exaggerate it. I think any dollar the U.S. Government spends on 
personnel or security equipment on our border with Canada is a 
dollar that is misspent. As an amateur historian, I will tell 
you that one of the things I have learned is that successful 
generals often win their battles by selecting intelligently the 
place where the battle is fought. A 4,000-mile-long land border 
with Canada is not the place to draw a security perimeter.
    So I think it is time we sit down with the government of 
Canada and look at the functions we perform on our border. That 
border has not for years performed a significant revenue 
function. It's not a good place to enforce our health and 
safety regulations. Hundreds of thousands of Canadians and 
Americans across the border every day. They drink the water, 
they eat the food, they breathe the air, they ride on public 
transportation, they drive on highways 5 feet away from 18-
wheelers with no thought that they have entered a more risky 
environment. And yet we spend over $200 million a year here in 
the United States to enforce our health and safety regulations 
at the border.
    So I think one of the things we need to do is to consider 
working with the government of Canada to create what I would 
call a zone of confidence in which we're satisfied that not 
only the health and safety standards on both sides of the 
border are comparable, and this is a fact that Canadian and 
American citizens de facto already recognize, but also that the 
immigration and policing functions on both sides of the border 
are effective and able to keep terrorists out of both the 
United States and Canada. Because I can tell you this: any 
dangerous person who can find a way into Canada will be able to 
cross our border. There is simply no way we can prevent that 
from happening.
    So the critical thing is to spend the scarce resources we 
have in those choke points that are the entry points into North 
America. The airport in Toronto, the airport at Montreal. The 
airports in New York and Atlanta. If we can put our resources 
into those choke points and pull them off the land border that 
we can't defend anyway, we believe we can do a much more 
effective job of not only facilitating trade but guaranteeing 
the security of all North Americans. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Simpson follows:]

    [GRAPHIC] [TIFF OMITTED] T5608.046
    
    [GRAPHIC] [TIFF OMITTED] T5608.047
    
    [GRAPHIC] [TIFF OMITTED] T5608.048
    
    [GRAPHIC] [TIFF OMITTED] T5608.049
    
    Mr. Souder. Thank you very much. And our last witness will 
be brought home by a fellow Hoosier. Batting cleanup is Mr. 
Steve Russell, representing the trucking industry.
    Mr. Russell. Thank you, Mr. Chairman and Representative 
Cummings. My name is Steve Russell. I'm the founder and 
chairman and CEO of the Celadon Group, a trucking company based 
in Indianapolis. Celadon was established in 1985, and is the 
largest transporter of truckload freight between the United 
States, Canada and Mexico. We own and operate over 2,700 
tractors and 8,000 trailers and employ about 2900 people.
    Today I also appear before you as a member of the American 
Trucking Association or ATA. I appreciate the opportunity to 
speak to the subcommittee today and I want to commend you for 
holding these hearings at a very timely point and looking at 
ways of possibly further ensuring the security of operations 
and the efficiency of our country's land border ports of entry.
    Since our inception, Celadon has handled more 1.3 million 
truckload crossings between the United States, Canada and 
Mexico, with crossing roughly 2,400 trailers per week at the 
Southern border and 800 per week on the Northern border. 
Trucking plays a critical role in trade between these countries 
by moving 71 percent of the value of freight between Canada and 
the United States and 81 percent between Mexico and the United 
States.
    ATA and the trucking industry have been busy working with a 
number of government agencies, such as Customs, INS, and DOT to 
improve the security of motor carrier operations across our 
land borders. A more detailed description of these efforts is 
included in my written remarks that I have provided to the 
subcommittee. Such joint industry-government efforts will 
continue to work well to eradicate the potential use of 
legitimate commercial conveyances for moving illegal cargo and 
aliens across our Northern and Southern borders.
    My comments will focus on two issues before the committee. 
One, the potential reorganization and consolidation of U.S. 
Government agencies operating at U.S. ports of entry and, two, 
the importance of working closely with Canada and Mexico to 
further improve the efficiency of operations and security of 
our borders.
    ATA supports any viable realignment that can improve the 
operation of the U.S. border agencies to increase security and 
efficiency at our ports of entry. ATA's concerns are not 
related to the structure of organizations, however, but more in 
the processing of information systems that exist between the 
agencies. Therefore, any restructuring effort should focus on 
fixing the systems for processing and sharing information among 
the agencies.
    However, members of the trade community are concerned that 
recent energies and efforts focused on improving Customs 
clearance and other clearance for cargo and people entering in 
and exiting the United States could be derailed. Perhaps more 
important, Commissioners Bonner and Ziglar from Customs and INS 
have asked for nongovernmental interests to provide feedback 
and input into the development of improved systems and 
technologies. ATA is actively participating in these efforts.
    I would now like to talk about NAFTA and our relations with 
our NAFTA partners. Both Canada and Mexico, our largest and 
second largest trading partners respectively, play a critical 
role in our economic well-being. Bilateral trade with Mexico 
has tripled while U.S.-Canada trade has more than doubled since 
NAFTA began. The recently announced border security plans 
established with Canada and Mexico have launched a new basis 
for improving the operation and security of our mutual borders.
    These plans compel our respective governments to improve 
harmonization of border operations, improve our exchange of 
information, and coordinate infrastructure development. ATA 
supports the establishment of a Northern American perimeter 
zone for security between Canada and the United States and 
believes that Mexico should be part of such deliberations as 
well. Such an approach would allow for protection of the 
external borders of North America, therefore alleviating 
security pressures constraining our land border operations.
    Any efforts to enhance security of the movement of cargo 
across our common borders should not only focus on the trucking 
industry, but also include the movement of freight by rail and 
railcars or intermodal by rail.
    On behalf of the ATA and its members, I urge the 
subcommittee, in conjunction with other House committees with 
oversight of border agencies, to look at the needs of our ports 
of entry. We must establish appropriate levels of resources, 
physical infrastructure, investments and technology to improve 
security and efficiency. Before a decision is reached to 
reorganize and realign border agencies into a single 
department, let's make sure that we have exhausted all other 
remedies.
    Trade with Canada and Mexico is essential to our economic 
well-being. Therefore, it is critical that the movement of 
cargo across borders be done in an efficient, secure manner 
that relies on improved communications and coordination among 
our border agencies.
    Mr. Chairman, ATA looks forward to continuing our 
cooperation with those authorities charged with securing our 
Nation against future terrorist threats. ATA understands the 
role trucking must play to ensure our national security in this 
newly changed landscape. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Russell follows:]

    [GRAPHIC] [TIFF OMITTED] T5608.050
    
    [GRAPHIC] [TIFF OMITTED] T5608.051
    
    [GRAPHIC] [TIFF OMITTED] T5608.052
    
    [GRAPHIC] [TIFF OMITTED] T5608.053
    
    [GRAPHIC] [TIFF OMITTED] T5608.054
    
    [GRAPHIC] [TIFF OMITTED] T5608.055
    
    [GRAPHIC] [TIFF OMITTED] T5608.056
    
    [GRAPHIC] [TIFF OMITTED] T5608.057
    
    [GRAPHIC] [TIFF OMITTED] T5608.058
    
    Mr. Souder. Thank you very much. One of the frustrations 
that you have when you plunge in an area, it reminds me of when 
I was in high school, my dad found this plaque that he thought 
was hilarious and he brought it home from vacation to the band 
director. And we all had to sit every time we had band and look 
at this plaque, and he thought it was hilarious. None of us got 
it. It said, ``Why can't all life's problems come when we are 
young and know all the answers?'' .
    The older you get, the more you realize the truth of that 
statement. And the more you plunge into this, the more 
difficult it is. And let me--we will go at least two rounds 
here because I have quite a few questions and will submit.
    But let me first start with Ms. Kelley and Mr. Bonner. We 
are looking in our report that I chaired with Parliamentarian 
Susan Wayland of Windsor the U.S.-Canada parliamentary subgroup 
on transborder issues. And Windsor-Detroit presents a huge 
problem area of how to locate enough facilities to keep the 
traffic moving. And one of the discussions, also there are 
concerns on the Canadian side about moving over the bridge, if 
there are safety concerns. And so they've been, as well as 
other locations, pushing for facilities on the Canadian side.
    What is the position on either of your unions of having any 
of your personnel based in--across the border and what concerns 
do you have about that?
    Ms. Kelley. NTEU currently represents some Customs 
employees who do in fact work in the preclearance areas in 
Canada, and so they are there, and there are processes for how 
it's determined which employees will go there, for how long, 
and other safety concerns. There is an issue over there 
concerning their inability to carry weapons, which in the 
United States, of course, Customs inspectors are armed.
    But on the bigger issue of whether that should be expanded 
to more ports, I really cannot give a NTEU position at this 
time primarily because we have had, other than your statement, 
no briefings from Customs on anything that has even been 
considered in this area. It is something that I would like to 
seriously consider and needs to be addressed one way or the 
other as we hear about all the problems that the Customs as 
well as trade and the government are facing. But without a lot 
more information, at this point I would have to delay my 
response, but I would look forward to the opportunity for the 
briefing and for more information actually about your meetings 
because I just don't have that information.
    Mr. Souder. Particularly as we look at even more complex 
questions of if we would move to focus at the origin of seaport 
traffic, as opposed to looking at it here, these become big 
questions on the involvement of U.S. personnel and what 
restrictions we have and the safety and the clearances. Even at 
the Ottawa airport, which has been traditional, there are 
concerns about safety, about the ability of both, as I 
understand, both INS and Customs, even if you spot somebody who 
is a potential terrorist, and they get any idea that we are 
spotting them, they can move and it may take multiple levels of 
the Canadian Government, which is the most cooperative of 
governments and the most similar to our system, to respond, and 
we quite frankly usually lose them.
    RCMP has been cooperative. Other agencies have been less 
so, I think it would be fair to say. Mr. Bonner.
    Mr. Bonner. As Ms. Kelley says, the biggest concern we have 
is the inability of our officers to be armed in Canada, and 
that terrorists and other criminals are going to be armed. So 
in order to defend ourselves and to defend the public around 
us, I think that is critical. So there has to be some way to 
overcome that if we are going to have our officers operating in 
foreign countries.
    Mr. Souder. Would pursuit be a question as well?
    Mr. Bonner. Depending on how it's structured. I mean, if 
they're going deeper into the foreign country, then obviously 
it is their problem and not a problem of ours. If we have the 
ability to shut down the lanes at the ports of entry, I don't 
think it would be a problem coming into the United States.
    Mr. Souder. Because we have had this hot pursuit question 
at Port Angeles where we caught the millennium bomber. They 
went beyond their bounds and took it into their own hands or we 
would have lost the millennium bomber as well. These are tough 
questions at the borders that your agents are dealing with: 
Doing what they sense is the right thing to do versus doing 
what they are told they are supposed to do.
    One other question I wanted to ask both of you on upgrading 
the data base and automated systems: Do you believe that there 
is sufficient progress being made and could you give us any 
insights into the ACE system?
    Ms. Kelley. The problem with the ACE system, all along in 
the very beginning the funding was not provided to get it off 
to a jump start. The information that I have to date on the ACE 
system is, as Bonnie Tischler testified, it is still 
progressing. It is still a funding issue, but it is one that I 
believe will address most, if not all, of the issues that we 
consistently hear identified that need to be addressed in the 
trade area.
    I think everyone wishes it could happen in 6 months, not in 
4 or 5 years. That has been the interest from the very 
beginning because of the stretch and the stress that is being 
put on the ACS system, as well as the employees that are trying 
to operate in that environment. It would be a big help to them 
being able to more effectively doing their jobs. If there was a 
way to speed up the funding, assuming that this data base work 
and all the technology work could be done, and I think it could 
be done faster than 4 years if the funding were provided, that 
would be, I think, a help not just to Customs, but to everyone 
who is depending on it.
    Mr. Souder. Do you have any comments on that, Mr. Bonner?
    Mr. Bonner. No, I believe that----
    Mr. Souder. We will give you some written questions on the 
INS clearance processes on the visas and see if you have any--
or either of you can in the additional days here for testimony 
get any input from field agents that they may have about some 
concerns about where we have look at how to make the systems 
better. We are not looking how to set us back but how to make 
them more effective.
    Mr. Cummings.
    Mr. Cummings. Thank you all for your testimony. It has been 
very interesting. Mr. Bonner, what is the rationale for 
limiting the lateral transfer opportunities for personnel along 
the southwest border?
    Mr. Bonner. Cost savings. If they hire new people and put 
them in the desirable locations, they don't have to pay the 
transfer costs of experienced personnel. But in the end, you 
end up paying more because your experienced personnel leave 
because they can't get out of their initial duty assignment.
    Mr. Cummings. Chairman Souder has mentioned offering 
incentives for language proficiency, as in Spanish, for 
example. Do you have a view on this?
    Mr. Bonner. Actually, that has been authorized since the 
passage of the Federal Law Enforcement Pay Reform Act of 1990 
or 1991. But it's never been paid. It's discretionary with the 
agency. They have the ability to pay a 5 percent foreign 
language bonus, but have chosen never to pay a penny to their 
employees.
    Mr. Souder. We also heard at the Quebec border that a 
number of--I can't remember if it was INS or Customs person 
actually grew up in a French-speaking household and couldn't 
meet the standards even though his first language was French, 
because it's State Department criteria for very formal French. 
And that one of the things when we are looking at languages is 
because we focus so much on Spanish, even in the Quebec border, 
you would think we would have somebody who could be certified 
to speak French.
    So one of the things, in addition to hearing here that they 
aren't giving the bonuses, is is the standard expectation so 
high the agencies don't go after it, in addition to they don't 
believe they are going to get the money? This has become huge 
in the question of Arabic, Farsi, other languages where we 
basically get on a phone and you try to find the service that 
can interpret what that package says in a car or a truck, which 
probably is not written in English.
    Ms. Kelley. If I could add in the Customs Service, NTEU has 
been successful in negotiating with Customs over establishing 
some criteria for payments of the foreign language awards for 
recognition of that. And you are right, it is under the State 
Department criteria, but we have been successful in setting up 
joint criteria, and there are persons in the Customs Service 
receiving these awards, perhaps not to the extent we would like 
to see it paid, but Customs is making those payments to 
employees today.
    Mr. Cummings. There was another part to my question I did 
not finish, so we have been answering a partial question. I was 
just wondering, with that incentive in mind, do you all see 
that as a way of retaining people and attracting folk? I know 
the problems that you just stated.
    Ms. Kelley. In my experience, it is not anything that 
necessarily serves as a huge retention factor. It's not a high 
percentage of salary or anything that really, you know, would 
be a retention incentive, for example. And for the most part, 
we see them existing on the southwest border mostly in the 
language of Spanish. I really haven't seen statistics for the 
different languages, and in light of this conversation, I am 
going to get more information about what languages employees do 
have and where they are receiving this. I will also check on 
their belief concerning its retention value. I think it 
probably needs to be a higher percentage available to them and 
more actual funds available in order for that to really be a 
factor. But I'll check on that and get back to you, Mr. 
Cummings.
    Mr. Cummings. I appreciate that. I was getting ready to ask 
Mr. Bonner did he know what percentage of the immigration 
inspectors on the southwest border speak Spanish. Do you have 
any idea?
    Mr. Bonner. All Border Patrol agents are required to be 
somewhat fluent in Spanish. They undergo a number of weeks of 
foreign language training and are tested twice during their 
probationary period, and if they are not proficient enough, 
their employment is terminated. Similarly, immigration 
inspectors all receive foreign language training. So the 
percentage along the Southern border is 99 percent who speak 
Spanish very well. And obviously on the Northern border, you 
have folks who are fluent in French.
    I would say that it would be a help if we could get this 
mandatory to have this 5 percent bonus in retaining people. But 
bear in mind that the differential between the base pay of 
these employees, both the Border Patrol agents, immigration 
inspectors, and Customs inspectors is far behind that of most 
other Federal law enforcement agents.
    The journeyman level is GS-9 compared to GS-12 for most 
other agencies. When you factor in the differences between both 
base pay and the overtime pay, which for the higher-graded 
agents is obviously paid at a higher level, you are looking in 
the neighborhood of about $25,000 per year.
    So it is no surprise that a lot of those agents are looking 
for better-paying jobs. The fact that so many Border Patrol 
agents are going over to the Air Marshal Program now is only 
indicative of this dissatisfaction with the job which has been 
simmering under the surface for all of these years. They have 
just been waiting for someone else to open up jobs. Now that 
they have, fully half of the Border Patrol agents have applied 
for those jobs and----
    Mr. Cummings. Half?
    Mr. Bonner. Fully half. The INS estimates that the 
attrition rate will hit 20 percent by the end of the year. We 
believe that it will be closer to 25 percent. That is one out 
of every four agents will have left, primarily for the Air 
Marshal Service.
    Mr. Cummings. So what are you doing to replace them? I 
mean, do you have an aggressive program?
    Mr. Bonner. Yes. It has an aggressive hiring program, but 
their biggest problem is hanging on to the people that they 
have. And unless that is addressed, we can hire from now until 
the end of the beginning of the next millennium, and we are 
still going to be having this problem.
    Mr. Cummings. What does a GS-9 make?
    Mr. Bonner. A GS-9 makes in the neighborhood of mid-30's.
    Mr. Cummings. Uh-huh. Just one other question.
    Do you know, Mr. Bonner, whether within the INS leadership 
there is any kind of support for a single terrorist data base?
    Mr. Bonner. I am unaware. I don't know.
    Mr. Cummings. All right. Does anybody else?
    All right, Mr. Chairman.
    Mr. Souder. Mr. Simpson, as to your Canada proposal, do you 
have a similar feeling about Mexico?
    Mr. Simpson. I think, Mr. Chairman, the logical extension 
of my argument is that at some point we would have to consider 
the same sort of arrangement with Mexico, because that border 
is equally difficult to patrol. And I think the Government of 
Mexico, frankly, being aware that the idea of a zone of 
confidence between the United States and Canada has been 
considered, is interested in not being left out.
    What I have learned is that they realize that the potential 
for the United States and Canada to enter into that sort of an 
arrangement is more advanced. Mexico understands that 
arrangement will come first between the United States and 
Canada. They just want to be on the same track, even if they 
are farther behind on the track. They would like to be sure 
that they are on the same track.
    Mr. Souder. I think it is--a couple of things are 
relatively safe to say, because one is--is that most of us are 
aware that there are differences in the north and south border, 
but politically to separate the two is almost impossible. It 
has been a stumbling block for years, long before September 
11th. And with the shifting population mixes in the United 
States, it is even more politically difficult, without 
enunciating further; that regardless whether it is based on 
merit or perceived discrimination, that--a second thing is that 
we are trying to move with the Canadians toward more 
commonality, but to some degree this threatens Canadian self-
identity as much as it does American self-identity. In other 
words, they are proud of their visa differences and their 
immigration differences.
    They have made some movement, but when we were up in Ottawa 
and met with the Attorney General and the parliamentarians, 
they have made some movement, but they aren't really interested 
in, quote, becoming like the United States and our more 
restrictive immigration policies, which is a huge stumbling 
block.
    Furthermore, in spite of efforts, and we have made some 
progress, they have substantially different opinions on 
narcotics, particularly on BC Bud, which is going on the 
streets of Fort Wayne and New York for more than cocaine right 
now because of its potency. And fortunately they haven't taken 
the more radical steps they were looking at in some of these 
areas.
    Almost all of our Ecstacy is coming from Holland via 
Canada, and while we are trying to move as far in that 
direction as possible, and we need to work with them because I 
understand the difficulty at the border, not to mention 
localized issues, like I said, like cheese, the problems in the 
Vancouver Harbor reception and point of origin of what they are 
willing to do as what we might be able to do, Long Beach, Los 
Angeles or Seattle, with point of origin, are very difficult 
questions.
    We are similar, and the goal in NAFTA is to push us more 
toward similarities and see the advantage of that cooperation, 
but there are some substantial difficulties. But organizations 
like yours pushing us in that direction hopefully will help do 
that.
    Mr. Simpson. If I may, Mr. Chairman, I believe that the 
things that we need to do to create the zone of confidence 
between the United States and Canada can be accomplished 
without either nation sacrificing its political sovereignty. I 
think it is a really wonderful state of affairs that the United 
States and Canada have the luxury of disagreeing over soft wood 
lumber and cheese. That is, to me, a delightful situation.
    I think the problems that lie between us and the sort of 
common security arrangement that we need to create are entirely 
manageable both politically and diplomatically and 
administratively, and there is no reason not to move forward 
quickly.
    Mr. Souder. I wanted to also followup with Mr. Russell, 
because have you had experiences at both borders. Do you see--
what kind of differences do you see that impact your firm 
differently on the north and south borders?
    Mr. Russell. We have seen a change over the past 17 years. 
In the past 2 years, the Mexican border has advanced in terms 
of infrastructure on the Mexican side rapidly. It is--there are 
differences in several core areas. Today a U.S. driver can 
cross into Canada, and a Canadian driver can cross into the 
United States.
    But along the lines of the point you were just making, Mr. 
Chairman, there are differences. If a U.S. driver has been 
indicted on a nonpayment of alimony, as an example, in his 
county in Oklahoma, he is not allowed into Canada, whereas the 
U.S. laws and the--the immigration permission for Canadians 
crossing into the United States is different, and those 
differences basically have affected the way the borders have 
operated from a trucking standpoint in a relatively meaningful 
way.
    The flow of freight between the two borders on the Canadian 
side after September 11th was quite difficult, for perhaps the 
next month or two, with the extensive delays, 20 hours, 15 
hours, long lines of traffic. But due to the efforts of Customs 
and Immigration over the past several months, that has improved 
to almost the way it was before September 11th.
    The Mexican border, again tremendous efforts by the Customs 
people, increasing the amount of intensity of reviews, and yet 
essentially very minor delays compared to prior to September 
11th.
    So the borders are different in many regards, but I think 
the philosophy that Mr. Simpson was talking about of creating a 
North American perimeter zone in certain areas makes a 
tremendous amount of sense.
    Mr. Souder. Mr. Johnson, could you talk a little bit about 
the challenges we face on the southern border, because in the 
north I would assume that shipping is a little more seasonal; 
not completely, but a little more seasonal. The water sides of 
Mexico are complex. That is where a lot of our narcotics are 
coming in. The immigration question is a lot, because Mexico 
also can't control its south border. You referred to Panama and 
things moving through there.
    Could you talk about your confidence in some of the 
security systems and how this would work----
    Mr. Johnson. Sure.
    Mr. Souder [continuing]. Both from the commerce standpoint 
and a potential terrorist?
    Mr. Johnson. I think if we use the term ``security 
system,'' we are being very generous in describing it as such, 
because it is not much of a system nor very secure. And I don't 
think there is a quick fix. I mean, it is human nature. We 
would like to get the quick fix. If we sit back and look at 
this objectively, the Al Qaeda members who tried to come into 
the United States came in two ways. They came in through the 
visa waiver program in Europe, and they went into Canada and 
then came in through Canada. We don't have any evidence of them 
coming across the Southern border.
    I think, as I have talked to different people both in the 
counterterrorism community from State, from Customs, from FBI, 
and from some other agencies, I keep hearing the same thing, 
which is nobody has really sat down and agreed upon, within the 
U.S. Government, what secure border means, and so therefore we 
are pursuing a goal without even having it defined.
    And I think there are legitimate concerns about how can you 
ensure that the commerce can move, because if--if anybody has 
sat and watched a container being loaded--I have been in Colon, 
Panama, and watched these things being stacked. I guess the 
only thing perhaps more exciting than that is sitting at an 
airport watching an X-ray machine. They are both very boring 
activities. It is repetition. And I think within this we can 
get to a point where we can put in place some screening 
systems. I mean, the cargo systems are being developed, but to 
get those developed technologically where they will process 
cargo containers at a very efficient rate is going to require 
an investment of resources that the private sector is not going 
to match. That is where government is going to have to step in 
and help move that along.
    I don't think we are going to ever stop the illegal 
immigration of people coming across the border, because 
particularly in the Texas-New Mexico area and Arizona, it is 
too wide open. There are ways that people can get in there. But 
the threat that is posed from people trying to take advantage 
of the commercial transactions to me is one where we can use a 
combination of human behavior and incentives governing human 
behavior, making sure that people have an incentive to do a 
good job and equipping them with the technology to do it.
    That said, getting that done, I think we are looking at a 
fairly 5 or 6-year effort at a minimum. That is assuming we 
commit the resources and we have a vision of what we are doing. 
What I am telling you now, based upon the facts here in 
government are telling me, there is no vision, and there is no 
consensus, and until you get those two issues addressed, I 
don't think you can deal with the others.
    Mr. Souder. Thank you.
    Mr. Cummings.
    Mr. Cummings. Yes. I just have just a few more questions.
    Ms. Kelley, you talked about the briefings and joint 
operations like intelligence collection and analysis teams. You 
talked about how they had improved interagency cooperation. Do 
you think more of these briefings would cure some of the 
problems that proponents of consolidating agencies are 
attempting to achieve?
    Ms. Kelley. I think they would definitely help. I think 
they are not the only answer. The issue of a data base, a 
shared data base, that all law enforcement agencies have access 
to is one that I think needs to be followed through on, and it 
is one that I hear repeatedly is kind of the missing link for 
the front-line employees out in the field who are actually 
working the borders and the seaports and the airports, that is 
what they need is a single source of information for easy 
checking and access. That doesn't exist.
    The briefings that I spoke about occur at the much higher 
levels here in Washington, DC, between the agencies. And I know 
that before September 11th, Customs, for example, was not 
included in those briefings, and they are today, and that has 
made a big difference in the communication that we see 
obviously on this important issue.
    Mr. Cummings. So you don't see reorganization as being 
necessary at all?
    Ms. Kelley. I don't. I think it always makes sense to look 
at how agencies are operating, if they are operating 
efficiently, but I think to reorganize or to consolidate and 
thinking that is the be-all and the end-all is the wrong 
answer. I think with everything that the agencies have that 
they are faced with today, having to focus their energy instead 
on a reorganization about who is in charge and about losing 
expertise--I continue to be very worried that each of the 
agencies have their very clear areas of expertise which I 
believe are undisputed, and to merge those and have them be 
diluted, I think, would be a disservice to the taxpayers and 
actually go against the goals that those who talk about 
consolidation are trying to achieve. It is not about 
consolidating, it is about providing the resources to the 
agencies to do the areas of expertise that they were formed and 
chartered to do many years ago.
    Mr. Cummings. These VACIS machines that are sitting and 
with nobody trained to use them, are there a lot of instances 
of that kind of thing where we have--first of all, is that 
pretty widespread, that particular machine?
    Ms. Kelly . Yes. There are too many instances where the 
equipment is available--either is available and there is not 
enough staffing to run it, because you have to be trained to 
use it. Is a very intense process, so you need staffing. And so 
that is one issue is the staffing. And the second is equipment 
that is there, but needs maintenance. It needs to be repaired 
in some way. And the resources aren't there to do that, so it 
doesn't happen, it doesn't get used.
    Mr. Cummings. All right. We have got a vote. But I want to 
thank all of you for your testimony, and we will be following 
up with some written questions.
    Mr. Souder. Thanks. I also want to thank you. I have a 
couple of additional questions I want to try to squeeze in 
here. Mr. Koch, first I want to thank not only you, but the 
others for giving us very specific things to chew on that we 
can try to get in the system here.
    That in the point of origin, because that was an 
interesting concept, I assume that you also--there would be 
spot checks in transport, and you are saying the primary should 
be at port of origin. To what extent do you think that would be 
done by American agents, by--combination with private 
companies, and the companies--and representatives of the other 
nations at the point of origin?
    Mr. Koch. I would agree with Bonni Tischler's comment this 
morning. I think it is going to depend on the government and 
the port here that the U.S. Government is talking to. It could 
very easily be an analogy to the Canadian situation where we 
trust Canadian Customs, but would have some U.S. Customs people 
there to oversee the job, to look at the advanced data and say, 
hey, this one I want to look at; that one is fine, let it go.
    I think we have to accept the fact that if we are going to 
put people in foreign ports, that they are going to expect 
reciprocity, and so we are going to have to be prepared to 
offer to foreign governments whatever we expect of them, 
because some foreign governments view American exports with 
some concern, too. Timothy McVeigh showed you can put something 
in a truck or a container and cause a lot of damage with it, 
and we cannot be insensitive to the fact that trade is 
bilateral, and what is going to be good for us has got to be 
good going in both directions.
    There may be some countries where there is not effective 
cooperation, and then the government will have to figure out, 
how do you respond to that? But I think it is going to be a 
series of layers. It is going to be things like the TPAT 
program, where you find shippers who are willing to secure 
their supply chain from the time the container is stuffed 
through the transit to the port with the ocean carrier all of 
the way through. And for those people who don't participate in 
those kinds of programs, there has got to be consequences to 
greater risk of being inspected or delayed or whatever. It is 
going to be various layers that are going to be the answer to 
this. There won't be one single solution.
    Mr. Souder. I think the record should show, too, what we 
have heard at a couple of the border crossings is that they 
actually have, in some cases, more narcotics going across our 
direction to Canada than vice versa, as well as money 
laundering. Often the BC Bud comes down, and the cocaine goes 
back. It isn't just a problem of coming at the United States, 
it is what we are putting out. And I think that was well said. 
Too often we don't acknowledge that. Everybody else is bad, and 
we are not. We have some problems in controlling things here, 
too.
    I want to briefly--you each made, I believe, some comments 
on the mergers. And, I have one other question first. I 
believe, Mr. Johnson, you made a reference to the Coast Guard. 
What do you think is the single most important issue regarding 
maritime security that you believe our government isn't giving 
attention to so that as we look at new legislation----
    Mr. Johnson. With the Coast Guard you do not have enough 
people to do the full inspection of the ships coming into the 
ports. That is simply stated. And the reason I favor looking at 
some sort of merger and putting these different agencies 
together is to harness the resources, to eliminate the 
redundancy, and to maximize the efficiency of all of the 
personnel.
    Mr. Souder. You had a rather interesting alternative, 
because, that--that what is unbelievably confusing here is 
Coast Guard is under Transportation. Customs is under Treasury. 
We heard about the strawberries, which would be Ag, among 
others, seven agencies, that--and, of course, INS is Justice.
    Part of the reason we have this committee with such broad 
oversight, probably the only oversight committee we have pieced 
it together. We have all drugs and narcotics because it got 
frustrating because it was in 22 different places. But we also 
have Commerce in with Justice, in with HHS and Education and 
HUD to try to look at different prongs of health and narcotics 
policy, but also because when we dealt with Justice issues and 
border issues, we can have Commerce underneath it. And this is 
just a microcosm of the mess--this is an oversight committee as 
well as some authorizing on narcotics. But you propose putting 
it all under Commerce where none of it currently is.
    Mr. Johnson. I suggested putting it under Treasury, but the 
specifics, I think, can be battled over. But I think at the end 
of the day, look at it from a military standpoint. Within the 
military ultimately when you fight a war, there is a Commander 
in Chief. There are other agencies or units that support. And 
what you have right now with the U.S. Government in terms of 
protecting our borders is there is nobody in charge. There is 
no one person who is the CINC with support in command.
    Mr. Souder. Would you agree that at a minimum that--your 
point in technology is something that just seems stupid, quite 
frankly, is that we are having multiple agencies develop 
different means to do the same thing; that at the very least 
the technology ought to be consolidated.
    Mr. Johnson. Absolutely. I mean, immediately.
    Mr. Souder. And data collection?
    Mr. Johnson. Yes.
    Mr. Souder. And if the other parts aren't consolidated, 
would you put those under Homeland Security, or would you put 
them under Justice?
    Mr. Johnson. I think the Homeland Security Agency is a good 
concept, but Tom Ridge, unless he has money, he is ineffective. 
We watched with the drug czar for years, well-meaning people 
who get into that job, but they have no effective control over 
DOD, over Department of Justice, etc. So at the end of the day, 
the money--you know, the money in this town makes the world go 
around. If you get to write the checks, you get to direct the 
way the resources go.
    So at the end of the day, I think there has to be somebody 
who is ultimately accountable to the Congress from a budget 
standpoint, because they can also enforce their will with the 
money.
    Mr. Souder. The functional practicality at the borders, 
what we have seen is that INS and Customs agents are sharing 
duties; in fact, sometimes flipping who does what at different 
points of the day.
    But the reason this is going to be so hard--and one of the 
things I want to make sure in this committee is that in--it has 
actually turned out as we look at terrorism, we are also 
following the narcotics question, but that the Coast Guard also 
has a search and safety component that historically has been 
the biggest. It has a fisheries component. The business 
community is going to be very reluctant to have the border 
become predominantly oriented toward security as opposed to 
trade. Those who are concerned about immigration as opposed to 
just terrorists are going to have huge concerns, and that is 
another block. Politically I don't really see how--not to 
mention just normal institutional committee jurisdiction 
problems these things often have. We have massive reports, but 
in practicality I just don't see, unless we are under multiple 
repeated attacks, that can happen that way.
    And to the degree that we can get this scoped in and say, 
look, we have to do the technology, we have to do this--this 
security background check stuff where agencies--information 
floating around everywhere and not consolidated, or the types 
of terrible things that you mentioned, not to mention others 
that have been in the news media about we have the information, 
and it doesn't get into the system. That--we need to do those.
    Do any of you have any additional comments you want to make 
before we close this down, and then we will also ask additional 
written questions. Any additional information that you or 
members of your association want to submit, because we are 
trying to build the case here, and we know the administration 
is debating on some of these things at this time. It is a good 
time to weigh in.
    Mr. Koch. Fully recognizing, Mr. Chairman, the difficulty 
of getting Congress to approve a legislative reorganization 
task, I still think there is plenty of issues that where there 
is organizational confusion in our government, where you don't 
need an act of Congress to get it fixed. The Office of Homeland 
Security was created to be a White House staff office. It could 
have the power of the White House to say, you have got this, 
you have got this, and you got this. And we are glad Governor 
Ridge is coming before you, because, I mean, presumably that 
office has the authority to make some of the--develop some of 
the answers to some of the questions you have heard today, 
which is what is the relationship between TSA and the Customs 
Service and the Coast Guard? Who owns container security? Who 
has got the job of negotiating with the foreign governments? 
Who owns the issue?
    And while certainly legislation is one way to do it, it is 
not the only way to bring some clarity and resolution to the 
ambiguity that is holding things up.
    Mr. Souder. I will say one of the things that I have 
learned in--when we dealt with narcotics overseas, that 
automatically takes you into trade and immigration. So we wound 
up consolidating things, because whenever we go over, we don't 
talk about all three things. We raise one; they raise another. 
We go back and forth. The other governments are also aligned 
and even often in more bureaucratic systems and overlap and 
trying to match up, so we have an international problem.
    But I agree that--first off, we all agree we can do a whole 
lot better. The question is that hopefully under this 
administration we can see some of that.
    Does anybody else have any additional comments?
    Once again, thank you all for coming, and we will be in 
touch over the next few days.
    [Whereupon, at 12:25 p.m., the subcommittee was adjourned.]


</pre></body></html>
